                                   United States Department of Agriculture

                                   Report to the Secretary of Agriculture




September 1998
                                   Evaluation of the Office of
                                   Civil Rights’ Efforts to
                                   Reduce the Backlog of
                                   Program Complaints




Evaluation Report No. 60801-1-Hq
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL
                                         Washington D.C. 20250



                                                                                 September 30, 1998


REPORT TO THE SECRETARY ON CIVIL RIGHTS ISSUES - PHASE V

FROM:          Roger C. Viadero
               Inspector General

SUBJECT:       Evaluation of the Office of Civil Rights’ Efforts to Reduce the Backlog of
               Program Complaints, Evaluation Report No. 60801-1-Hq


In July 1998, your Assistant Secretary for Administration asked the Office of Inspector General to
review the efforts by the Office of Civil Rights (CR) to reduce the backlog of program complaints
in USDA. Attached is a copy of the results of this review. This represents our fifth evaluation of the
Department's efforts to reduce the program complaints backlog and to improve the overall complaint
processing system, including the investigative process.

We found that the Department, through CR, has not made significant progress in reducing the
complaints backlog. Whereas the backlog stood at 1,088 complaints on November 1, 1997, it still
remains at 616 complaints as of September 11, 1998.

The problems we noted before in the complaints resolution process also continue. CR's data base
remains an unreliable repository of information, and its casefiles are too slovenly to ensure the
availability of critical documents. A disaffected staff and a leadership vacuum have contributed to
a system that cannot ensure complainants a timely hearing of their grievances.

Of considerable concern to us is CR's lack of progress in reforming its operations in accordance with
our previous recommendations. Few corrective actions have been taken to increase the efficiency of
the complaints resolution process. We also noted that CR staffmembers have not always been honest
in portraying the actual level of their performance. Some of the information they gave us proved to
be inaccurate. Some of the information they gave you on earlier occasions proved likewise to be
inaccurate.

Because of continuing problems in the complaints resolution process, we are recommending that you
convene a Complaints Resolution Task Force (independent of CR) to immediately assume control
of the backlog and have full authority to resolve complaints, including entering into settlement
agreements. We are also recommending that the civil rights function within the Department be
elevated to the level of Assistant Secretary.
REPORT TO THE SECRETARY ON CIVIL RIGHTS ISSUES - PHASE V                                        2

At your request, we will be continuing our work with CR, giving special emphasis to its management
of settlement agreements.
Executive Summary

Purpose                           The Assistant Secretary for Administration asked us to
                                  perform a followup review of the operations of USDA’s
                   Office of Civil Rights (CR), the office responsible for resolving complaints
                   made against the Department for alleged civil rights violations in the
                   administration of its programs. During four previous reviews of the
                   Department's civil rights program complaints system, we determined that
                   the system was not functioning properly and that the Department had
                   amassed a growing backlog of complaints that required immediate
                   attention. Although CR itself could not accurately determine how large
                   the backlog was at the time of our first review, it later identified 1,088
                   outstanding unresolved complaints before November 1, 1997.

Results in Brief                       Our past reviews had questioned the productivity of
                                       CR; we had found a disaffected staff and a leadership
                   vacuum. Little was being accomplished by USDA agencies to respond to
                   citizen complaints of discrimination, and little was done by CR to manage
                   the resolution process. Some complaints in CR's backlog had languished
                   for over 2 years. After our February 1997 report, CR made the resolution
                   of its backlog its first priority.

                   Our current review disclosed that the backlog of complaints of civil rights
                   violations, although reduced, still stands at 616 cases as of September 11,
                   1998. Of these 616 cases, 80 are under investigation, 310 are awaiting
                   adjudication, 23 are undergoing a legal sufficiency review, and 103 are
                   pending closure. The remaining 100 cases still await a preliminary
                   analysis. (Because 164 complainants are involved in lawsuits against the
                   Department, their cases cannot currently be processed. Of these 164
                   cases, 147 are included in the remaining backlog.)

                   The backlog is not being resolved at a faster rate because CR itself has not
                   attained the efficiency it needs to systematically reduce the caseload. Few
                   of the deficiencies we noted in our previous reviews have been corrected.
                   The office is still in disarray, providing no decisive leadership and making
                   little attempt to correct the mistakes of the past. We noted with
                   considerable concern that after 20 months, CR has made virtually no
                   progress in implementing the corrective actions we thought essential to
                   the viability of its operations. The following table summarizes the key
                   areas for which our recommendations were made and in which the
                   uncorrected deficiencies persist.




                                          i
             RECURRING OFFICE OF CIVIL RIGHTS ISSUES
                                                                    OIG Evaluation Phases

                                            Alert          I           II        Memo            IV            V
                   Issue                  (02/25/97)   (02/27/97)   (09/29/97)   (12/18/97)   (03/04/98)    (09/30/98)



 Review State foreclosure actions           Y            Y            Y            Y            Y             Y
 Send letters of acknowledgment
 (Completed November 1997)                               Y            Y
 Develop and maintain a data base                        Y            Y            Y            Y             Y
 Evaluate each agency’s civil rights
 staff                                                   Y            Y            Y            Y             Y
 Clean casefiles                                         Y            Y            Y            Y             Y
 Clear backlog                                           Y            Y            Y            Y             Y
 Publish regulations                                     Y            Y            Y            Y             Y
 Reconcile casesfiles with USDA
 agencies                                                Y            Y            Y            Y             Y
 Write plans for compliance reviews                      Y            Y            Y            Y             Y
 Follow up on isolated instances of
 potential discrimination                                                          Y            Y             Y
 Find lost casefiles                                     Y            Y            Y            Y             Y
 Use aging reports                                       Y            Y            Y            Y             Y
 Train investigators                                                  Y            Y            Y             Y
Y Condition originally noted and recommendation made. Y Condition continues. Y Corrective action taken but not adequately
implemented. See exhibits B and C for the Secretary’s memoranda regarding Phases I and II.

Table 1: Areas of Deficiency Previously Noted by OIG and Still Uncorrected.

                                                           ii
We estimate that if CR continues to operate under its current methods and
at its current rate, the backlog of complaints existing on
November 1, 1997, will not be completely resolved for at least another
year.

Most conspicuous among the uncorrected problems is the continuing
disorder within CR. The data base CR uses to report the status of cases
is unreliable and full of errors, and the files it keeps to store needed
documentation are slovenly and unmanaged. Forty complaint files could
not be found, and another 130 complaints that were listed in USDA
agency files were not recorded in CR's data base. Management controls
were so poor that we could not render an opinion on the quality of CR's
investigations and adjudications.

Of equal significance is the absence of written policy and procedures. It
is incumbent upon CR to revise departmental policy to ensure it complies
with civil rights laws and to establish the framework of its own activities.
We believe standardized, written guidelines are essential to CR's
operation, and it is a matter of concern to us that CR has, over the space
of 20 months, produced nothing to lay the foundation for good
management controls.

The absence of formal procedures and accurate records raises questions
about due care within the complaints resolution process. We found
critical quality control steps missing at every stage of the process.
Staffmembers with little training and less experience were put to judging
matters that carry serious legal and moral implications. Many of CR's
adjudicators, who must determine whether discrimination occurred, were
student interns. Legal staffmembers with the Office of the General
Counsel (OGC), who review CR's decisions for legal sufficiency, have had
to return over half of them because they were based on incomplete data
or faulty analysis. We noted that a disproportionately large percent of the
616 cases of unresolved backlog had bottlenecked in the adjudication unit

Furthermore, CR may not understand the full scope of its authority. CR
has concentrated its oversight on federally-conducted programs; it has
largely ignored a host of federally-assisted programs (e.g., crop insurance,
research grants) in which complaints of discrimination may have been
made.

CR's unsuccessful efforts to resolve the backlog of civil rights complaints
are in part the symptom of an insecurity that has affected office morale.
The many reorganizations the complaints resolution staff has undergone,
the high turnover the staff has experienced within the last several years,

                       iii
              and the inadequate training afforded both managers and staffmembers,
              have left the staff unfocused and without clear direction. The staff we
              found at the civil rights offices was not a coherent team of dedicated
              professionals with a shared vision but a fragmented order of individual
              fiefdoms, each mindful only of its own borders and its own
              responsibilities. Low office morale has contributed to a lack of
              productivity. CR’s data base shows that since January 1997, CR closed
              only 19 cases through adjudication, 8 of which were not even investigated
              by CR. Through this inefficiency, complainants are being denied a timely
              hearing of their civil rights complaints.

              Also disturbing was the evasiveness we encountered at CR. We found
              discrepancies between what we were told by staffmembers and what we
              were subsequently able to verify. We found similar discrepancies in
              information CR communicated to the Secretary. These discrepancies, in
              the number of open and closed complaints, were repeated at congressional
              hearings and other public forums.

              We concluded that in order to complete the backlog of cases
              expeditiously, the Secretary needs to transfer resolution of the backlog to
              a complaints resolution task force, composed of seasoned adjudicators
              and well qualified civil rights personnel from Federal agencies outside
              USDA. The task force should have full authority to review and resolve
              all complaints.

              To increase CR's efficiency in the long term, the Secretary should create
              an Assistant Secretary of Civil Rights with subcabinet-level status.
              Concurrently, the CR Director should emphasize hiring managers who
              have a solid background in civil rights and a good knowledge of
              Department programs.

              Once in operation, the task force would provide CR with the opportunity
              to focus on its own structure and implement the reforms it needs to
              function efficiently. We believe CR is capable of these reforms and that
              it is in the best position within the Department to act objectively in
              resolving civil rights complaints. Consequently it should retain
              Department authority to investigate future complaints. We believe that
              when CR has taken the corrective actions we previously recommended,
              as well as the steps outlined in this followup report, it will provide more
              efficient service.

Key Recommendations         We recommend that the Secretary take the following
                            actions to ensure that citizens who have complained of
              discrimination by USDA receive a timely hearing:

                                    iv
                     - Immediately convene a complaints resolution task force, composed of
                       well qualified civil rights personnel from other Federal agencies and
                       senior USDA program personnel with decision-making authority. The
                       task force, under the direction of an Executive Director who reports
                       directly to the Secretary, should immediately assume control of the
                       backlog and have full authority to review and resolve complaints.

                          The complaints resolution task force could also assist the CR
                          Director in reviewing new complaints that have exceeded the 180-
                          day resolution deadline set by the Civil Rights Implementation
                          Team.

                          The OGC and the CR Director should be available to assist the task
                          force in its efforts.

                          The task force should perform a case-by-case, document-by-
                          document sweep of the casefiles to restore retrievability to the
                          information contained in the files.

                     - Elevate the Department's civil rights functions to the level of Assistant
                       Secretary with full authority across agency lines.

                     - Require CR to (a) issue needed operational policies and procedures
                       within a 2-month timeframe, (b) resolve within 2 months all other
                       recommendations that we made in our previous reports but that CR has
                       failed to implement, (c) keep open all cases with settlement agreements
                       so the agreements may be tracked, and (d) institute other operational
                       improvements that will ensure the efficient operation of the civil rights
                       functions within the Department and ensure due care in the resolution
                       of all civil rights complaints as well as a timely hearing for all
                       complainants.

Statistical Data on Complaints      According to CR's data base as of September 11, 1998, the
                                    Department's inventory of complaints totals 1,439 that are
                     open and 582 that are closed. Of the total open and closed cases, 383 are
                     part of 2 lawsuits brought against the Department; 77 from the
                     Brewington lawsuit, and 256 from the Pigford lawsuit. These cases are
                     identified separately because the court prohibited CR from processing the
                     cases as long as they were under litigation.

                     CR categorizes complaints that have not yet been reviewed as “intend-to-
                     file” cases. Normally these cases are considered “unperfected.”
                     However, if the complainant has indicated an intent to go forward with


                                            v
the complaint once Congress waives the 2-year statute of limitations, the
case is identified separately.

The three tables on the next page identify the status of all cases in the
inventory.




                      vi
                             Status of Civil Rights Program Complaints as of September 11, 1998.
                           Not in Lawsuit                   Pigford Lawsuita              Brewington Lawsuitb                      Total

                    Intend     Open      Closed      Intend      Open       Closed     Intend       Open     Closed     Intend      Open      Closed

    Backlog                     469         455                    144         16                    3         1                    616         472

    New                         138         106                    19           2                    6         1                    163         109

    Unperfected      271                     1         6                                  7                              284                       1

    Statue of
    Limitations      248                               69                                59                              376

    Totals           519        607         562        75          163         18        66          9         2         660        779         582
a
    Actual total number of complainants in the Pigford lawsuit as of 08/06/98 is 481. Not all complainants are captured in CR’s data base.
b
    Actual total number of complainants in the Brewington lawsuit as of 08/06/98 is 132. Not all complainants are captured in CR’s data base.
    CR is prohibited from processing cases under litigation and cannot yet process those cases which fall outside the statute of limitations.
Table 2: Status of Civil Rights Program Complaints as of September 11, 1998.


                                                     Status of Backlog Complaints
                                                  Not in Lawsuit           Pigford Lawsuit            Brewington Lawsuit                   Total

    Pre-Investigation                                              69                         31                                                   100

    Under Investigation                                            75                           5                                                      80

    Adjudication                                                214                           93                               3                   310

    At OGC                                                         19                           4                                                      23

    Pending Closure                                                92                         11                                                   103

    Closed                                                      455                            16                              1                   472

    Total                                                       924                           160                              4                1,088
Table 3: Status of Civil Rights Backlog Program Complaints as of September 11, 1998.


                                                       Status of New Complaints
                                                  Not in Lawsuit           Pigford Lawsuit            Brewington Lawsuit                   Total

    Pre-Investigation                                           126                            17                              6                   149

    Under Investigation                                             2                                                                                   2

    Adjudication                                                    7                           2                                                       9

    At OGC                                                                                                                                              0

    Pending Closure                                                 3                                                                                   3

    Closed                                                      106                             2                              1                   109

    Total                                                       244                            21                              7                   272
Table 4: Status of Civil Rights New Program Complaints as of September 11, 1998.

                                                                          vii
TABLE OF CONTENTS



EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

         BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

         OBJECTIVES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

         SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

         METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5



CONCLUSIONS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . 7

1.       THE INTEGRITY OF THE COMPLAINTS RESOLUTION PROCESS
         CANNOT BE ASCERTAINED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

         CR Needs More Experienced Adjudicators . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
            Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

         The Process For Handling New Complaints Needs Reengineering . . . . . . . . . . . . . . . . 15
            Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

         CR Does Not Practice Good Case Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
            Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

         No Assurance That CR Is Closing All Cases Properly . . . . . . . . . . . . . . . . . . . . . . . . . 17
            Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

         CR Did Not Manage Contractors Effectively . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
            Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                                                              viii
TABLE OF CONTENTS


     CR Did Not Understand the Full Scope of Its Delegated Authority
        for Assisted Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
        Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

2.   THE OFFICE OF CIVIL RIGHTS NEEDS AN ENVIRONMENT
     OF STABILITY AND COMMITMENT TO CIVIL RIGHTS . . . . . . . . . . . . . . . . 26

     CR Needs the Stability of Subcabinet-Level Status . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
        Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

     CR Needs To Be Staffed With Qualified Managers and Personnel . . . . . . . . . . . . . . . . 30
        Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

     Inadequate Training of Staff and Contractors Delayed Investigations . . . . . . . . . . . . . . 32
        Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

     Morale Among Staffmembers Is Low . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
       Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

3.   CR NEEDS TO SYSTEMATIZE ITS DATA ENTRY PROCEDURES
     AND REORGANIZE ITS CASEFILES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

     CR's Data Base Is Not Reliable . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
        Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

     Condition of Casefiles Renders Critical Material Inaccessible . . . . . . . . . . . . . . . . . . . . 39
        Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42

4.   CR NEEDS TO UPDATE CIVIL RIGHTS GUIDELINES
     TO ENSURE DUE CARE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43

     CR Needs To Revise Its Department Regulatory Guidelines . . . . . . . . . . . . . . . . . . . . . 44
        Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

     Standard Procedures Need To Be Published for Investigations
        and Compliance Reviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45
        Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46




                                                          ix
TABLE OF CONTENTS


5.      PAST DEFICIENCIES CONTINUE: CR HAS NOT IMPLEMENTED
        CORRECTIVE ACTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47
          Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50




EXHIBITS
        A - 37 FSA Cases Not on CR's Data Base . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

        B - Secretary's Response to OIG's Phase I Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . 52

        C - Secretary's Response to OIG's Phase II Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54




                                                             x
Introduction

Background                        In December 1996, at the direction of the Secretary, who
                                  had raised concerns about the performance of the
                   Department's civil rights program complaint system, OIG began an
                   evaluation of the system that has continued through five reporting phases
                   and resulted in reappraisals over a 20-month period. This report presents
                   the results of our fifth evaluation of civil rights at USDA.

                   The Department's complaint system has been the subject of recent
                   controversy. The Civil Rights Action Team (CRAT), assembled by the
                   Secretary in December 1996, was appointed to look into the concerns of
                   minority and disadvantaged farmers who had alleged USDA officials had
                   discriminated against them in their participation in farm loan programs.
                   As a result of its study, CRAT made 92 recommendations, one of which
                   was to consolidate civil rights complaint activities that were largely
                   posited in the Office of Operation's Civil Rights Enforcement and
                   Adjudication branch and the Policy, Anaysis, and Coordination Center -
                   Civil Rights, and create a separate Office of Civil Rights (CR). Civil
                   Rights Implementation Teams (CRIT) were created to implement the
                   CRAT recommendations.

                   We began our first evaluation (Phase I) of the Department's complaint
                   system in December 1996. At that time, CR's predecessor, the Civil
                   Rights Enforcement and Adjudication branch, was responsible for
                   resolving complaints from individuals who alleged they had been
                   discriminated against in their participation in USDA programs. However,
                   the branch's role in the resolution of these complaints was limited to an
                   analysis of the preliminary inquiry that had been performed by the USDA
                   agency against which the complaint had been made. Each individual
                   agency was responsible to conduct its own preliminary inquiry of the
                   complaint and, at the branch's direction, attempt conciliation with the
                   complainant. Based on the preliminary inquiry, the branch would
                   recommend a finding of discrimination or no finding of discrimination.

                   During our Phase I review, we determined that the Department's civil
                   rights complaint system was in disarray. Complaints of program
                   discrimination were backlogged at the agencies, and the civil rights branch
                   could not determine the status of most of these complaints. Although the
                   branch did not adequately track the complaints and could not determine
                   how many were on file, we were able to identify 241 outstanding
                   complaints from the Farm Service Agency that had not been resolved as
                   of January 27, 1997.

USDA/OIG/A 60801-1-Hq                                                                       1
                   As of May 16, 1997, as a result of CRAT's recommendations to the
                   Secretary, the Assistant Secretary for Administration was given full
                   responsibility to investigate and adjudicate all complaints of program
                   discrimination. This authority was further delegated to the Director of
                   CR. An ad hoc team was formed of USDA agency personnel to help
                   reduce the backlog, but the team was unable to operate effectively, noting
                   that poor documentation and disorganized casefiles stood in the way of
                   easy resolution. The team's recommendations were rejected by the
                   Director of CR because the complaints were never properly investigated.

                   Our Phase I review found several deficiencies that contributed to the
                   backlog and to CR's inability to resolve these aging complaints.
                   Specifically we noted that CR could not determine the number of
                   outstanding complaints it had because it did not have a usable filing
                   system or a reliable data base. Also, CR did not have controls in place to
                   monitor and track complaints, and it did not have current regulations and
                   formal procedures for its operations.

                   The deficiencies in CR's operations that we discovered during Phase I of
                   our reviews were also present during Phase II, which we reported in
                   September 1997, and during Phase IV, which we reported in March 1998.
                   (See table 1.)

                   After the ad hoc team disbanded, CR hired additional staff and contracted
                   with 11 firms to investigate the backlog of civil rights complaints. CR
                   defined the backlog as those program complaints in existence when CR
                   was formed, complaints resulting from the listening sessions held by
                   CRAT, and any other complaint received before November 1, 1997.
                   There were 1,088 complaints in this category. CR recognized as new
                   program complaints those "perfected" complaints received on or after
                   November 1, 1997, or those complaints that were filed but closed
                   administratively. A complaint is said to be "perfected" once the issue and
                   basis of the complaint have been determined. Administrative closures
                   include instances where the complainant failed to pursue the complaint,
                   failed to state a protected basis and issue, or failed to file a complaint in
                   a timely manner. Also, cases are closed administratively when USDA
                   lacks jurisdiction.

                   Besides backlogged and new complaints, CR recognizes a category called
                   "intends to file." Intend-to-file cases are those complaints received on or
                   after November 1, 1997, that have not yet been perfected, or cases that
                   are part of two lawsuits against the Department.



USDA/OIG/A 60801-1-Hq                                                                         2
                   One of CRIT’s responsibilities was to formulate procedures regarding
                   processing program complaints. The procedures CRIT developed for CR
                   to process these complaints require that the complaints be resolved within
                   180 calendar days from the date of complaint. Out of the 125 open ‘new’
                   complaints, 38 were over this 180-day threshold at the beginning of our
                   review. Therefore, CR in effect has a new backlog within its existing
                   ‘new’ category of complaints.

                   As of September 11, 1998, CR has closed 472 backlog cases, has 103
                   pending closure, and 23 under review by OGC. The majority (310) of
                   open backlog cases are in the adjudication (decision rendering) phase of
                   the complaint investigation process. CR is in the process of investigating
                   80 complaints and has not begun investigating the remaining 100 backlog
                   complaints.

                   As this report shows, we believe the inefficient operations of CR have
                   contributed to the delay in eliminating the backlog of old complaints and
                   to the creation of the backlog of new complaints.

                   Under CR's May 1997 reorganization, the office now consists of six
                   divisions. Our evaluation focused on three of these: the Planning and
                   Policy Division, whose function is to issue regulations and procedures; the
                   Accountability Division, whose function is to oversee corrective actions
                   prescribed by settlements and decisions finding discrimination; and the
                   Program Investigations Division, whose function is to investigate
                   complaints of program discrimination.


Objectives                       The Assistant Secretary for Administration asked us to
                                 determine the effectiveness of CR's efforts to reduce the
                   backlog of program complaints. Specifically, we evaluated the
                   effectiveness of CR's information system, complaint processing system,
                   organizational structure and environment, and policies and procedures.
                   We also examined CR's progress in implementing recommendations from
                   previous OIG audit reports.



Scope                             We performed our work at the Office of Civil Rights in
                                  Washington, D.C. This review encompassed issues
                   originally identified in our February 27, 1997, report (Evaluation Report
                   for the Secretary on Civil Rights Issues - Phase I) to current operations.
                   Since February 1997, we have issued 2 evaluation reports and 2 internal


USDA/OIG/A 60801-1-Hq                                                                       3
                   memoranda to the Department which contained 44 recommendations
                   regarding civil rights in the Department. (Of these, 31 recommendations
                   related to CR’s operations.) The field work was performed in August and
                   September 1998. As of August 5, 1998, CR's data base reflected a
                   backlog total of 1,088 cases, a new total of 203, an unperfected total of
                   314, and a lawsuit total of 354.

                   We only included closed cases in our selection universe. Open cases were
                   not considered for review because we did not want to interfere with CR's
                   processing of these cases. According to CR's data base dated August 5,
                   1998, CR had closed 515 cases. This figure breaks down to 437 backlog
                   cases and 78 new cases (unperfected cases were recategorized as new
                   prior to being closed).

                   We selected our sample based on type of closure. The closures were
                   broken down into three main categories: cases closed by decision either
                   with findings of discrimination or no findings of discrimination (26 total
                   cases); cases closed by settlement agreement (64 total cases); and cases
                   closed administratively (425 total cases). We reviewed 24 of the 26 cases
                   closed by decision, 14 of the 64 cases closed by settlement agreement, and
                   33 of the 425 cases closed administratively. These cases were coded as
                   such in CR’s data base as of August 5, 1998. We originally selected all
                   26 cases closed for decision for a detailed review. However, after a 3-
                   week search, CR was unable to locate two cases. In addition, during our
                   review of one administratively closed case, we noted that a different
                   complainant's file information was mistakenly included.               This
                   complainant's case was coded as open; however, it was actually closed
                   with a settlement agreement. We reviewed this case, which brought the
                   total number of cases we reviewed to 72.




USDA/OIG/A 60801-1-Hq                                                                      4
                                        Summary of Cases Reviewed
                                        Backlog                     New                        All Cases
                               Total        Reviewed        Total      Reviewed         Total      Reviewed
 Closed by Decision               25           23a            1              1            26           24
 Settlements                      63              14          1              0            64           14
 Administratively                 349             33          76             1           425           34b
 Total                            437             70          78             2           515           72
 a
  CR personnel could not find the casefiles for two cases closed by decision. We had intended to review all 25
 cases closed by decision.
 b
   33 of these 34 were coded as administrative closures. Per CR’s data base, the remaining case was open.

Table 5: Cases Reviewed During This Evaluation.

                              Unless otherwise noted, all figures used in reference to the number of civil
                              rights cases originated from CR’s data base, as provided to us by CR
                              officials on either August 5, 1998, or September 11, 1998.

                              This review was conducted in accordance with the Quality Standards for
                              Inspections issued by the President's Council on Integrity and Efficiency.
                              Accordingly, the review included such tests of program and accounting
                              records as were considered necessary to meet the review objectives.


Methodology                                   To accomplish our objectives, we:


                              !          conducted interviews with responsible CR officials,

                              !          reviewed investigative reports prepared by CR staff and contract
                                         investigators,

                              !          reviewed draft and final decisions prepared by CR staff and
                                         relevant documentation from the sampled casefiles,

                              !          analyzed CR's data base used to track program complaints,

                              !          reviewed documentation concerning timeliness of processing of
                                         complaints and used this to estimate when the backlog of
                                         complaints will be resolved,

USDA/OIG/A 60801-1-Hq                                                                                            5
                   !    evaluated the process to resolve complaints,

                   !    reviewed CR policies and procedures,

                   !    performed a physical inventory of all program complaints casefiles
                        at CR,

                   !    interviewed OGC officials to determine their role in the program
                        civil rights complaints resolution process,

                   !    reviewed CR’s corrective actions taken in response to our prior
                        recommendations,

                   !    contacted 15 Department agencies to determine the number of
                        open program civil rights complaints and compared these figures
                        to CR's data base, and

                   !    interviewed Department of Housing and Urban Development
                        (HUD) officials regarding USDA's Memorandum of
                        Understanding with HUD and HUD's process used to handle
                        program civil rights complaints.




USDA/OIG/A 60801-1-Hq                                                                   6
Chapter 1: The Complaints Resolution Process

The Integrity of the Complaints Resolution Process Cannot Be
Ascertained

                    Because CR does not systematically include critical quality control steps
                    in its complaint process, we could not determine whether it resolved all
                    cases properly. We found a lack of management controls in all stages of
                    the process.

                    Complaints of program discrimination are resolved by CR's Program
                    Investigations Division (PID). Program complaints follow a resolution
                    process that consists of the following phases:

                    -   Pre-investigation Phase. During this phase, PID reviews each
                        complaint to determine if it is a bonafide complaint and if CR has
                        jurisdiction. If more information is needed, PID contacts the
                        complainant. This process is called "perfecting" the complaint. If the
                        complainant fails to respond or the complainant is not a member of a
                        protected class, the case may be closed administratively. Once enough
                        information is assembled, the case is recommended for administrative
                        closure, investigation, or adjudication.

                    -   Investigation. Each bonafide complaint may be investigated either by
                        CR personnel or by 1 of 11 contractors. The investigator of each
                        complaint gathers information about the complainant, the program
                        involved, and the practices of the office where the discrimination is
                        alleged to have occurred.

                    -   Adjudication. Using the reports of investigation, PID's adjudicators
                        determine (1) if the complainant belongs to a protected class, (2) if the
                        complainant was eligible to participate in USDA programs, (3) if the
                        complainant was harmed by USDA's action, (4) if any statistical
                        evidence shows the program office has been inequitable in its
                        treatment of any group of participants or applicants, and (5) if there
                        is some inference that the USDA decision-maker may have been
                        motivated by prejudice. These determinations form the basis of a
                        prima facie case of discrimination. Adjudicators use a similar analysis
                        for assisted programs.




USDA/OIG/A 60801-1-Hq                                                                          7
                        All PID decisions arrived at as a result of an investigation or a
                        preliminary inquiry are to be reviewed by the Office of the General
                        Counsel (OGC) for legal sufficiency.

                   We found that administrative closures were not properly reviewed by
                   management. Five of the 33 administrative closures we reviewed did not
                   have support for the closure decision. Cases that were investigated also
                   needed better management oversight. Adjudicators estimated that 60
                   percent of the reports of investigation they received from PID
                   investigators were deficient and needed to be returned for further
                   development. They further estimated that 60 percent of the reports of
                   investigation from contractors were also deficient. The adjudicators
                   stated that the reports lacked important interviews, sufficient data
                   collection, and complete case analysis. For their part, contractors
                   complained of inadequate oversight and assistance from PID.

                   Management over complaints in USDA's federally-assisted programs also
                   needs immediate review. CR currently focuses on federally-conducted
                   programs, whose operations are carried out by USDA employees. CR
                   does not consider those programs whose operations are carried out by
                   States, universities, grantees, and others. CR needs to research these
                   programs and determine if it should enter into agreements with the
                   agencies regarding the processing of these complaints.

                   Among the management problems we encountered, most conspicuous
                   were those over the adjudication stage. Our analysis showed that the
                   resolution of complaints slowed dramatically during the adjudication
                   stage. Inexperienced adjudicators, inadequate tracking, and a lack of
                   formal procedures and quality control have contributed to the continuing
                   inefficiency of PID's adjudications. In the absence of internal quality
                   controls, OGC has acted as the only compensating control through its
                   legal sufficiency review of adjudication decisions.

                   We concluded that CR does not currently demonstrate the efficiency
                   needed to resolve the backlog of outstanding cases and that a task force
                   of experienced adjudicators from outside the Department is a necessary
                   and appropriate corrective measure to ensure a timely hearing to the
                   complainants of the unresolved cases.




USDA/OIG/A 60801-1-Hq                                                                    8
Conclusion 1                      PID's quality control and adjudication team prepares
CR Needs More Experienced         decisions on discrimination complaints after reviewing draft
Adjudicators                      investigation reports and (for some of the backlog cases)
                                  preliminary inquiries. The decision is the ruling on the
                   factual and legal issues raised in the complaint. A decision includes
                   findings of fact, conclusions of law, and a finding on the ultimate question
                   of whether the agency discriminated against the complainant. We
                   determined that PID's adjudicators were inexperienced and needed greater
                   management oversight. Largely because of the inefficiencies of the
                   adjudicator staff, the outstanding cases that backlogged in CR have been
                   slow to reach resolution.

                   There was little management oversight to assess the efficiency of the
                   adjudications staff or ensure that cases were resolved and complainants
                   notified in a timely manner.

                   -    PID depended on the legal backgrounds of adjudicators in place of
                        civil rights experience. Individuals who had legal backgrounds were
                        hired as investigators late in 1997 and were made adjudicators in
                        February 1998 because of bottlenecks in the adjudication process.
                        Law student-interns supplemented the adjudications staff. CR
                        management did not provide the adjudicators with training on
                        reviewing reports of investigation and writing decisions, but depended
                        upon the legal backgrounds of the individuals assigned to the job. The
                        adjudicators and law student-interns had virtually no knowledge of the
                        complexities of USDA programs. The co-team leader for quality
                        control and adjudication, who has responsibility for the adjudicators
                        and reviews their decisions, served as a law student-intern during 1997
                        before becoming a nonmanagerial staffperson.

                   -    CR management is not fully aware of the inefficiency of the
                        adjudication team. Since the CR data base is neither timely nor
                        adequately maintained, PID cannot track the productivity of its
                        adjudicators, the amount of time that cases spend in the adjudications
                        process, or the number of times that decisions are returned for
                        corrections by both the co-team leader and OGC.

                        The timeframe for getting cases adjudicated is 7 days. However, cases
                        usually cannot be analyzed and decisions written in one continuous
                        process because the reports of investigation may not be sufficient and
                        need to be returned for additional information. Also, the quality
                        control and adjudication team is not required to maintain records of
                        the time that cases spend in this phase of the process.


USDA/OIG/A 60801-1-Hq                                                                        9
                   The inefficiency of the adjudications staff was manifest from the
                   productivity data we extracted from CR's data base. From this data, we
                   determined that between January 1997 and August 1998, CR closed only
                   19 cases with adjudicated decisions.

                   According to the database as of August 5, 1998, CR closed 26 cases by
                   issuing decision memos with either a finding or no finding of
                   discrimination. We reviewed 24 of the 26 cases; two casefiles could not
                   be located by CR during the 3 weeks our auditors conducted their
                   fieldwork. Of these 24 cases, 3 were miscoded and were in fact not
                   closed by decision (2 were administratively closed and 1 is still open).
                   Another two cases were actually closed in 1995.

                   We confirmed 19 of the 26 cases listed in CR's data base were closed by
                   decision between January 1997 and August 1998. Of these 19 cases:

                        Eleven were adjudicated based on a factual record resulting from
                        investigative reports conducted by either in-house investigators or
                        contractors. Eight of the 11 were closed with no finding of
                        discrimination on July 2, 1998, and three were closed with findings of
                        discrimination, one in November 1997 and two in March 1998.

                        Eight cases were adjudicated based on an agency preliminary inquiry
                        and closed by decision. Five were closed with no finding of
                        discrimination and three were closed with a finding of discrimination,
                        six in 1997 and two in 1998.




USDA/OIG/A 60801-1-Hq                                                                      10
                                   The following chart represents CR's final accomplishments in adjudicating
                                   cases and issuing decisions as of August 5, 1998, according to CR’s data
                                   base as corrected by the errors we noted.



                                                                                            Closed by decision -
          Decision Adjudicated                  Closed by decision - No                         Finding of
               Based on:                       Finding of Discrimination                      Discrimination          Total

         In-house investigative               3 cases closed on                           1 case closed in 1998           4
         reports                              July 2, 1998

         Contractor                           5 cases closed on                           1 case closed in 1998           7
         investigative reports                July 2, 1998
                                                                                          1 case closed in 1997

         Agency preliminary                   1 case closed in 1998                       1 case closed in 1998           8
         inquiry                              4 cases closed in 1997                      2 cases closed in 1997


         Total                                                                   13a                              6      19
     a
         Two additional cases were closed in 1995 and adjudicated based on an agency preliminary inquiry.


     Table 6: Adjudicated Decisions Issued Since January 1997.

                                   We noted that all five cases CR adjudicated based on an agency
                                   preliminary inquiry and closed with no findings of discrimination were
                                   closed with no OGC review for legal sufficiency. This occurred because
                                   there was no policy requiring this review prior to the establishment of the
                                   Civil Rights Division within OGC. We believe that CR should submit
                                   these cases to OGC for legal sufficiency review to ensure that the findings
                                   are adequately supported with factual data and sufficient legal analysis.

                                   Our own tracking of CR's backlog demonstrated the proportion of
                                   unresolved cases that had slowed in the system when they reached the
                                   adjudication stage. Our Phase I review (Evaluation Report for the
                                   Secretary on Civil Rights Issues - Phase I dated February 27, 1997)
                                   showed that as of January 27, 1997, the Farm Service Agency (FSA) had
                                   maintained a backlog of 241 complaints. Since this report was issued, we
                                   tracked the progress CR made to bring these 241 complaints to closure.
                                   We obtained status updates on July 8, 1997, February 18, 1998, and
                                   August 5, 1998.




USDA/OIG/A 60801-1-Hq                                                                                                         11
                                      The following table depicts the progress made by CR to bring these 241
                                      FSA cases to closure.


                                                STATUS OF ORIGINAL 241 FSA CASES
                                               Pre-Investigation

                                            Under Investigation
                                                                                                                                February, 1997
                                                   Adjudication
                                                                                                                                August, 1998
                                                         Closed

                                                     No Record

                                                                   0          20      40      60         80    100       120



                                      Table 7: Status of the Original 241 FSA Cases1

                                      The same proportion of cases in adjudication was evident in the greater
                                      Department backlog of cases. As of September 11, 1998, CR has closed
                                      472 backlog cases, has 103 pending closure, and 23 under review by
                                      OGC. The majority (310) of open backlog cases are in the adjudication
                                      (decision rendering) phase of the complaint process. CR is in the process
                                      of investigating 80 complaints and has not begun investigating the
                                      remaining 100 backlog complaints.

                                                                              STATUS OF BACKLOG
                                                                                   As of September 11, 1998

                                                      Pre Investigation
                                                          Investigation
                                              ROI Review/Adjudication
                                                              At OGC
                                                      Pending Closure
                                                               Closed

                                                                          0           100          200           300            400            500




                                      Table 8: Progress Toward Resolving the Backlog of 1,088 Cases


                                      As Tables 7 and 8 indicate, the delay in processing cases appears in the
                                      adjudication phase. Fifty-two percent of the original 241 FSA cases had
                                      been investigated and reported on but were still awaiting adjudication as

  1
   As this table indicates, 15 cases still remain in the pre-investigation category. The average age of these 15 cases is 1,059 days.


USDA/OIG/A 60801-1-Hq                                                                                                                                12
                                         of August 5, 1998. Similarly 45 percent of the unresolved backlog cases
                                         in the Department were reported on but were still awaiting adjudication
                                         on that date.

                                         Based on the length of time it took CR to close the 472 cases, we estimate
                                         that it will take CR at least another year2 to close the remaining 616
                                         backlog cases using its current investigation process.

                                         The quality of CR's adjudications is also in question. In the absence of
                                         quality control within the adjudications staff, OGC has acted as a
                                         compensatory control. OGC is responsible for reviewing CR's
                                         adjudications for legal sufficiency. OGC indicated that it does not
                                         substitute its judgment on findings of fact but will not concur if the
                                         findings are not supported with enough relevant evidence such that a
                                         reasonable person might arrive at the same conclusion stipulated in the CR
                                         decision. CR forwards the reports of investigation to OGC to facilitate
                                         the review of the proposed decisions.

                                         An example of an OGC comment issued as a result of a legal sufficiency
                                         review was that the statement obtained from the complainant by the
                                         investigator was “overwhelmingly insubstantial” and that the report of
                                         investigation contained faulty analysis of an age-based complaint. The
                                         adjudicator’s analysis was also deemed faulty. The complainant alleged
                                         he was denied an operating loan because of his age, but the analysis did
                                         not include an evaluation of whether the age of the complainant played a
                                         role in the denial.

                                         OGC indicated that over time the quality of CR's proposed decisions has
                                         improved but that more improvements are needed. In OGC’s opinion, the
                                         CR Director must change current practices and insist that proposed
                                         decisions receive additional supervision and a higher level of review
                                         before being dispatched to OGC.

                                         The quality of adjudications was identified in a recent memo from OGC's
                                         Associate General Counsel for Civil Rights to the CR Director. The
                                         memo states, "the quality of the decisions has to improve for OGC to
                                         provide legal clearance and, for that matter, for the Department's


    2
      Our estimate of 312 days is conservative and based on closed cases as of September 11, 1998. We believe most of the backlog cases CR has already
closed were closed administratively, which would mean the remaining cases will need to go through the investigation and adjudication process. The average
time it took CR to close a case that went through this process was 391 days. However, because staffing and training time is inherent in the 391-day
timeframe, we believe a more reasonable estimate is based on a weighted average of cases closed by decision, by settlement, through complainant actions,
and through administrative action. We have no statistical basis for this estimate; however, we believe it represents a reasonable timeframe, considering
CR's current operations.


USDA/OIG/A 60801-1-Hq                                                                                                                                13
                    complaint process to have any credibility." Another document notes that
                    during August 1998, OGC could concur with only 22 of 52 proposed
                    program decisions prepared by CR. The remaining 30 were returned to
                    CR because OGC determined that they were not legally sufficient to
                    support a finding and needed to be rewritten.

                    We concluded that the backlog of complaints remains at an unacceptable
                    level and that the complaints will not be resolved in a timely fashion
                    because of the inefficiencies of CR's operations. We are therefore
                    recommending that a special task force, composed of USDA program
                    personnel and civil rights specialists from throughout the Federal
                    Government, be constituted to take control of the backlog of complaints
                    and resolve them in a timely manner.

Recommendation 1a
                    Immediately convene a complaints resolution task force, composed of well
                    qualified civil rights personnel from other Federal agencies and senior
                    USDA program personnel with decision-making authority. The task
                    force, under the direction of an Executive Director who would report
                    directly to the Secretary, should immediately assume control of the
                    backlog and have full authority to review and resolve complaints.

                    The complaints resolution task force could also assist the CR Director in
                    reviewing new complaints that have exceeded the 180-day resolution
                    deadline set by CRAT.

                    The OGC and the CR Director should be available to assist the task force
                    in its efforts.

                    The task force should ensure, through a case-by-case, document-by-
                    document sweep of the casefiles, that accomplishment reports are
                    accurate and that all settlement agreements and agency corrective actions
                    are implemented in a timely manner.

                    The task force should also review all cases that were administratively
                    closed and ensure that complainants received due care.


Recommendation 1b
                    Require the CR Director to implement a system which demands a higher
                    level of supervision over the complaints process and makes the PID Chief
                    responsible for closely reviewing all proposed and final decisions.



USDA/OIG/A 60801-1-Hq                                                                     14
Recommendation 1c
                    Request OGC's legal sufficiency review for the seven cases closed with no
                    findings of discrimination adjudicated based on the agency preliminary
                    inquiry (this includes the two cases closed in 1995).


Conclusion 2                     CR officials agreed that the system for processing new
The Process For Handling         complaints is neither effective nor efficient. They emphasized
New Complaints Needs             that the system was not designed by civil rights professionals
Reengineering                    who would know the intricacies of processing complaints.

                    Once the complaint is perfected through letter writing, the complaint is
                    handed off to the agency against which the complaint was filed. CR
                    instructed USDA agencies to include, at a minimum, the following in the
                    agency response: (a) the agency's admission or denial of allegations and
                    the reasons for the denial; (b) the agency's perspective on the events that
                    led to the filing; (c) the criteria used by the agency to justify its position;
                    and (d) additional relevant materials, including a copy of the complainant's
                    file. Agencies were further instructed to refrain from seeking signed
                    statements from complainants, members of complainants' families, or
                    individuals not employed by USDA. Agencies were limited to 24 days to
                    accomplish their fact finding tasks.

                    In general, we were informed that agencies were doing more than required
                    (i.e., taking signed statements from the complainant and making decisions
                    about whether or not discrimination had occurred). A CR official said
                    that this stalls the process because the agencies routinely exceed the
                    allowed timeframe. Out of the 125 open ‘new’ complaints, 38 were over
                    the 180-day threshold at the beginning of our review. Once the agency
                    response is received, the intake staff recommends further action. At this
                    point, the case is handed off for further processing where a decision is
                    made to administratively close, adjudicate, or investigate the case. These
                    procedures result in fragmented case processing.

                    We believe that CR needs to transition from component processing of
                    their workload to a case management operational concept and structure.
                    This would involve immediately assigning the case to a CR case
                    management team for initial intake analysis, interviewing the complainant
                    extensively, and gathering as much information as possible before
                    requesting an "agency response" precisely tailored to the case. Upon
                    receipt of the response, the case management team should recommend and
                    ultimately implement a resolution (settlement or decision, with or without
                    further investigation, as appropriate).


USDA/OIG/A 60801-1-Hq                                                                           15
Recommendation 2a
                    Assure that the task force assists the CR Director in reviewing the new
                    backlog and in recommending process changes, to include a system that
                    emphasizes involvement of the complainant and a case management team
                    approach to the resolution of the complaint from the initial phases of the
                    process. Until this process is developed and implemented, however,
                    require CR to get back control of the cases which exceeded the 24-day
                    fact finding limit.

Recommendation 2b
                    Require USDA agencies to abide by CR instructions, limit their 24-day
                    reviews to fact-finding, and immediately stop obtaining signed statements
                    from complainants and other individuals not employed by USDA.



Conclusion 3                       We learned that since its inception in late 1997, the
CR Does Not Practice               investigations unit lacked the consistent leadership needed
Good Case Management               to ensure the quality of the investigative process. The
                                   investigations unit does not conduct supervisory reviews of
                    investigation plans or supervisory reviews of the investigations to assure
                    that they are being conducted in an effective and efficient manner.

                    Quality control of investigation reports does not occur within the
                    investigations unit. Adjudicators review the investigation reports,
                    determine if enough information has been provided for the purpose of
                    adjudication, and then use the reports as a basis for preparing decisions.
                    Therefore, the decision-makers can compromise the objectivity needed to
                    fairly adjudicate allegations of discrimination.

                    The report review process is neither formalized nor adequately controlled.
                    No documentation is maintained to record the number of deficient reports
                    or the number of times that deficient reports are being returned for
                    corrections. We were told by those involved with the review process that
                    at least 60 percent of the reports of investigation are insufficient and need
                    to be returned. They emphasized that this creates another delay in the
                    complaints processing system.

                    The contractors' reports of investigation generally are returned to them to
                    correct the deficiencies. Deficiencies in reports prepared by PID staff
                    investigators are resolved informally through contacts between PID
                    adjudicators and the staff investigators. Therefore, it is not possible for
                    CR management to assess the quality of the staff investigative process.


USDA/OIG/A 60801-1-Hq                                                                         16
                     Adjudicators informed us that in five cases they were instructed by the co-
                     team leader or the PID chief either to write a decision without first
                     determining whether the investigation report was sufficient or to write a
                     decision with no finding of discrimination even though the investigation
                     report was deemed insufficient by the adjudicator. In three cases, the
                     contractor who had forwarded the reports had defaulted on the contract
                     and would not be available to correct deficiencies in the reports.

Recommendation 3a
                     Direct CR to appropriately plan investigations and to conduct
                     investigations in an effective and efficient manner. At a minimum,
                     investigative plans should be reviewed by a CR manager who should also
                     be following up to ensure that investigations are proceeding as planned.

Recommendation 3b
                     Direct CR to design and implement a quality control system over the
                     review process for reports of investigation. At a minimum, the system
                     should include tracking procedures for recording the dates of reviews, the
                     deficiencies noted, the corrective actions taken, the adequacy of the
                     actions taken, and the number of times and to whom deficient reports are
                     returned. Quality control reviews of reports must not be conducted by
                     adjudicators.



Conclusion 4                        CR does not properly manage the cases it closes
No Assurance That CR Is             administratively and through settlements. CR did not
Closing All Cases Properly          ensure that all terms of settlement agreements were
                                    implemented before closing the cases, and it did not have
                     support for its decisions in all cases it closed administratively. Of the 33
                     cases coded as administrative closure, 5 did not show support for the
                     closure, and another 16 were improperly coded.

                     Cases Closed Administratively

                     We reviewed 33 of 349 backlogged complaint cases that were closed
                     administratively. Typically, these cases may be closed for failure to
                     pursue by the complainant, failure to state a protected basis and issue,
                     failure to file a complaint timely, lack of USDA jurisdiction over
                     complaint issues, referral of complaint to the Food Nutrition Service
                     (FNS) for processing, and other administrative reasons.




USDA/OIG/A 60801-1-Hq                                                                         17
                   CR’s data base, dated September 11, 1998, indicated that 37 cases that
                   had been closed administratively had been investigated. It appears that
                   these complaints had not been properly screened. As a result, time,
                   money, and effort were wasted investigating these cases.

                   Overall, the files did not contain sufficient documentation for us to
                   determine if the cases were appropriately reviewed by management before
                   they were closed. This became apparent after we found that 5 of 33
                   casefiles did not contain any evidence to support closing the case.
                   Another 16 cases were improperly coded.

                   Cases Closed With Settlements

                   We reviewed a total of 18 settlement agreements some of which were not
                   recorded as such in CR’s data base. We found five cases coded as closed
                   by a decision of discrimination that had settlement agreements as a result
                   of the finding. We found two settlement cases that were not recorded in
                   the data base as such (1 of these was among the 33 cases closed
                   administratively).

                   All seven cases we reviewed as closed by a decision with a finding of
                   discrimination and not coded for settlement also had settlement
                   agreements or required agency corrective action. However, there was no
                   evidence maintained in the casefiles to show that the agreements were
                   implemented or the required corrective actions were taken. CR does not
                   track the settlement agreements after they are executed, nor does it
                   require agencies to implement corrective actions prior to closing the cases.

                   The settlement agreements known to CR are not all cases in which a
                   settlement agreement was reached. In August 1998, the Director of CR
                   provided us with 17 settlement cases which the Director believed to be the
                   total number of settlements. CR’s data base, dated September 11, 1998,
                   listed 73 cases as closed with either a settlement agreement or final agency
                   decision with findings of discrimination (which included a settlement
                   agreement). During our evaluation, we reviewed 6 other closed cases not
                   included in the 17 closed settlement cases provided by the Director.
                   Therefore, the total universe of settlements is not known to CR
                   management.

                   Without a case-by-case review, CR continues to be uninformed about all
                   settlement agreements and whether all terms were implemented. Without
                   a system to monitor the implementation of settlement agreements, there
                   is no assurance that complainants are receiving timely redress.


USDA/OIG/A 60801-1-Hq                                                                       18
                      We concluded the Secretary needs to require a followup review of all
                      settlement agreements to determine whether the complainants are
                      receiving timely redress. In a September 4, 1998, memorandum, the
                      Secretary asked us to perform such a review. We will therefore continue
                      our work to determine the status of all settlements agreed upon by CR.

Recommendation 4a
                      Require the CR Director to close cases only after all terms and conditions
                      of settlement agreements and other required agency corrective actions are
                      implemented.

Recommendation 4b
                      Direct CR to immediately establish a system to control and monitor
                      implementation of settlement agreements.

Recommendation 4c
                      Direct CR to review the five administratively closed cases that did not
                      contain any evidence to support closing them.



Conclusion 5                          Although the CRIT team responsible for eliminating
CR Did Not Manage                     backlog cases was disbanded in June 1997, the need for
Contractors Effectively               urgent investigations continued due to congressional
                                      inquiries, media attention, and complainants’ frequent calls.
                      Beginning in July 1997, CR began to acquire the services of investigative
                      firms through the use of sole source, small purchase, and negotiated
                      contracts. We concluded that CR did not manage these contractors
                      effectively to provide quality investigations of the backlog of complaints.

                      In July 1997, CR contacted over 20 contractors and found only 1 that had
                      actual experience in conducting investigations of program discrimination
                      complaints. Citing unusual and compelling urgency, CR received
                      approval from the Office of Operations for an initial sole- source contract
                      for 1 contractor to perform 10 program complaint investigations. In all,
                      CR acquired the services of 11 investigative firms.

                      The first sole-source contractor eventually investigated and reported on
                      only three complaint cases, returning the rest to CR because the casefiles
                      were in disarray. This contractor was paid $45,000. As of September 11,
                      1998, the 11 contractors were assigned 297 cases, have finalized 105
                      investigative reports for PID, and have been paid approximately $1.3
                      million.


USDA/OIG/A 60801-1-Hq                                                                           19
                   We reviewed the contractors’ technical proposals and determined that
                   some stated they had experience in investigating program complaints.
                   However, most contractors' experience was limited to EEO complaint
                   investigations, whereas CR's investigations involve federally-assisted and
                   federally-conducted programs, not EEO issues. The need for initial
                   training, coordination, and oversight of these investigators was critical to
                   the management of the backlog. However, we noted during our review
                   that CR management failed to adequately oversee and assist the
                   investigators or manage the backlog. One official stated that this was due
                   to a lack of CR staff to supervise the contractors.

                   In January 1998, one contractor was notified that failure to perform in a
                   timely manner was considered a default under the contract. The
                   contractor was 50 days delinquent on 16 investigations. Correspondence
                   from contractors state that key CR managers ignored repeated requests
                   from the contractors for assistance. The contractors raised questions
                   about mismanagement of the contracts.

                   We noted one case in which the contractor was selected by CR
                   management even though there was an apparent conflict of interest
                   between the contractor and FSA. The contractor has on ongoing dispute
                   with FSA over additional funds owed to the contractor for extra work
                   provided to FSA. We believe that CR management exercised poor
                   judgement in allowing its contract to proceed and assigning FSA cases to
                   that contractor. Because of this conflict, there is no assurance that the
                   contractor supplied CR with impartial, objective investigative reports.

                   CR staff estimate the insufficiency of contractor reports of investigation
                   has ranged from about 60 to 80 percent, with a current insufficiency rate
                   of about 60 percent. Reports may be insufficient for a number of reasons,
                   including lack of interviews with complainants, witnesses, or agency
                   officials; incomplete data collection; and insufficient comparative analysis
                   or statistical data.

                   The report insufficiency problem with the commercial investigative firms
                   was and continues to be exacerbated by the lack of proper oversight by a
                   contracting officer or a technical representative. This responsibility had
                   been delegated to the PID chief, who in turn delegated the work to a
                   temporarily detailed employee. After this employee’s detail expired, the
                   oversight responsibility was never properly redelegated.

                   Currently, the oversight of the contractors' work is performed directly by
                   PID adjudicators. This means that the individual who reviews a


USDA/OIG/A 60801-1-Hq                                                                       20
                     contractor's investigation reports for accuracy and completeness may also
                     review it a second time for sufficiency. This situation compromises the
                     decision-maker’s ability to remain objective in exercising his or her duties
                     to fairly adjudicate allegations of discrimination.

                     CR officials informed us that contracting will continue to be used to
                     acquire resources within PID and other CR units. Therefore, we
                     recommend that CR create a permanent position for a contracting
                     specialist.

Recommendation 5
                     Direct CR to create a position for managing the contracts (contracting
                     specialist) to provide proper and timely oversight of the quality of work
                     submitted by contractors to ensure that work products and reports meet
                     the expectations and requirements as stated in the contract.


Conclusion 6                       We found that CR was not using Memoranda of
CR Did Not Understand              Understanding (MOU's) effectively to manage its caseload
the Full Scope of Its              or to track cases of discrimination that affect USDA
Delegated Authority For            operations. Typically MOU's may be used for USDA's
Assisted Programs                  assisted programs and cover processing of administrative
                                   complaints of discrimination against recipients of financial
                                   assistance from USDA. USDA has many agencies (e.g.,
                     FNS, the Risk Management Agency, and the Cooperative State Research,
                     Education, and Extension Service) whose programs participants (state and
                     local governments, insurance companies, and universities) are classified
                     as recipients of Federal financial assistance. USDA is responsible to
                     ensure that recipients of financial assistance comply with all civil rights
                     laws and regulations and may revoke funding of entities who do not
                     comply.

                     Currently CR has MOU's with two organizations, the U.S. Department of
                     Housing and Urban Development (HUD) and FNS. Other programs exist
                     that could be monitored more effectively through agreements contained
                     in MOU's, but CR has not surveyed these programs to determine how
                     effective the agreements could be.

                     Memorandum of Understanding with HUD

                     The scope of the MOU with HUD, which became effective in the fall of
                     1997, is limited to allegations of violations of the Fair Housing Act that
                     are made against participants of housing-related programs and activities


USDA/OIG/A 60801-1-Hq                                                                         21
                                         administered by USDA's Rural Housing Service. HUD is responsible for
                                         investigating and enforcing Fair Housing Act violations. The Fair
                                         Housing Act prohibits discrimination in housing based on race, color,
                                         national origin, religion, sex, familial status, and disability.

                                         Typically, complainants allege discrimination by persons or entities who
                                         receive Federal financial assistance from USDA. These can be housing
                                         developers and other non-USDA groups or non-USDA employees. The
                                         MOU does not cover complaints alleging that USDA officials have
                                         violated the Fair Housing Act.

                                         CR's data base shows that CR referred 59 backlog cases and 1 new
                                         complaint case to HUD for processing as of September 11, 1998.
                                         Eighteen backlog cases were closed administratively.

                                         According to the terms of the MOU, HUD and USDA shall meet once a
                                         year to discuss the operation of the MOU, make recommendations for
                                         improvements, and clarify the status of particular investigations. To date,
                                         CR has not clearly defined its relationship with HUD because Rural
                                         Housing Service officials executed the MOU with HUD officials without
                                         CR's involvement.

                                         We discovered that HUD may be processing up to 24 additional
                                         complaints alleging discrimination against USDA officials in the single-
                                         family housing program. CR officials stated they were not aware of these
                                         complaints. We believe that complaints of this nature should be reported
                                         immediately by HUD to CR.

                                         HUD has special processing procedures concerning jurisdiction. Potential
                                         complainants must be notified that HUD has no authority under the Fair
                                         Housing Act to determine whether the Act has been violated by other
                                         Federal agencies (such as USDA) or Federal officials.3 However, a HUD
                                         official told us that while HUD’s authority to conduct investigations and
                                         engage in conciliation may be challenged by Federal agencies, HUD’s
                                         procedure is not to drop a case because of a lack of jurisdiction under the
                                         Act. Instead, HUD will continue to accept housing discrimination
                                         complaints filed against Federal agencies and officials.




    3
       See Office of Legal Counsel (OLC) for the Department of Justice memorandum, issued May 17, 1994, entitled: “Enforcement Proceedings Against
Executive Agencies Under the Fair Housing Act”. OLC accepted USDA’s interpretation that, although USDA “is subject to discrimination prohibitions
in the Act [and] is required to cooperate with HUD to further the purposes of the Act,...it may not be made a respondent in enforcement proceedings brought
by HUD under the Act....or pay money damages as is allowed under the Act in either an administrative or judicial forum.”


USDA/OIG/A 60801-1-Hq                                                                                                                                 22
                   During our review, we obtained information from HUD’s data base
                   involving cases where USDA is the respondent to complaints filed since
                   January 1, 1997. There were 24 possible cases involving such complaints.
                   We believe that CR should process these complaints, account for them in
                   its information system, and be otherwise cognizant of all potential
                   investigations and settlements involving allegations against USDA
                   officials. Furthermore, we believe that CR and OGC, in cooperation with
                   HUD officials, should determine procedures under which HUD should
                   forward all future complaints against USDA employees to CR for case
                   processing and resolution.

                   The current MOU with HUD states, “This memorandum does not cover
                   complaints alleging that USDA has violated the Fair Housing Act. The
                   disposition of such complaints will be addressed at a future date in a
                   separate Memorandum of Understanding.” However, we believe that CR
                   in consultation with OGC should amend the existing MOU to include the
                   requirement that HUD forward all future complaints against USDA
                   employees to CR.

                   Memorandum of Understanding with FNS

                   The MOU with FNS, dated April 1998, establishes the guidelines by
                   which FNS will process, within 90 days of receipt, discrimination
                   complaints under the various laws and regulations which prohibit
                   discrimination in FNS programs. According to the agreement, CR retains
                   oversight authority for handling complaints and processing appeals. CR
                   is to monitor FNS activities through reporting systems and onsite reviews.
                   During our evaluation, we found no such monitoring of the FNS’
                   complaints processing activities. In addition, CR has not assured itself
                   that FNS regional and State office personnel receive adequate training to
                   carry out complaint processing procedures or compliance reviews.

                   CR procedures for implementing the MOU include accepting and
                   acknowledging complaints which are then referred to FNS for case
                   processing. Upon referral, CR closes the case. We believe that CR
                   should not close these cases but instead track them to resolution. CR’s
                   role in processing FNS complaints is limited to a reconsideration of FNS
                   decisions upon appeal by complainants.

                   During our review, we noted that of the 1,088 backlog cases, 93 were
                   FNS complaints. As of September 11, 1998, there have been 17 new
                   complaints and another 8 “intend-to-file” cases. In all, 33 backlog cases
                   were sent to FNS for processing and closed by CR.


USDA/OIG/A 60801-1-Hq                                                                     23
                    We believe that agencies such as FNS should continue to process
                    complaints against recipients of Federal financial assistance and to conduct
                    reviews of recipients' operations to ensure compliance with civil rights
                    laws and regulations. However, we feel it is imperative that CR execute
                    its oversight responsibilities through periodic monitoring of agencies’
                    procedures and staff. Therefore, we recommend that CR establish
                    timeframes for conducting reviews of FNS compliance and effectiveness
                    in carrying out its civil rights mission.

                    Other Agencies Responsible For Financial Assistance Programs

                    In addition to the housing and entitlement programs administered under
                    FNS and the Rural Housing Service, many more programs are conducted
                    by recipients of federal financial assistance through USDA. These include
                    public works projects, research projects, job creation projects,
                    conservation board districts and conservation commissions, Indian
                    reservations, insurance programs, state prisons, public and private social
                    services, world food distribution agencies, park and recreation facilities,
                    and water and solid waste systems.

                    These programs are conducted by State, local, and regional entities,
                    universities and colleges; tax-exempt or non-profit organizations; private
                    individuals (fellowships), insurance companies, etc. We believe that CR
                    should survey all USDA agencies who administer programs subject to
                    Federal financial assistance to determine the need for additional MOU's
                    for complaint processing and compliance reviews. Agencies such as the
                    Risk Management Agency and the Agricultural Marketing Service lend
                    themselves to conducting complaint investigations of civil rights
                    allegations. However, CR needs to assure itself that agreed-upon
                    procedures are followed and investigations and reviews are conducted by
                    staff trained and experienced in civil rights laws and regulations.

Recommendation 6a
                    Direct CR, in consultation with OGC, to amend the MOU to include the
                    requirement that HUD forward all future complaints against USDA
                    employees to CR.

Recommendation 6b
                    Direct CR to immediately determine the status of 24 possible complaints
                    against USDA employees that are currently in HUD’s intake process and
                    to analyze these for resolution. For cases that cannot be resolved, CR
                    needs to determine when and how HUD should transfer case processing
                    to CR.


USDA/OIG/A 60801-1-Hq                                                                        24
Recommendation 6c
                    Direct CR to immediately conduct surveys of all USDA programs to
                    determine the need to execute additional MOU's to ensure that civil rights
                    complaint processing and compliance review procedures adhere to
                    standards established by the Director of CR and are consistently applied
                    by staff trained and experienced in civil rights laws and regulations.

Recommendation 6d
                    Direct CR to keep open the cases it refers to FNS. Oversee, monitor, and
                    track complaints resolution for FNS and all future agencies with MOUs
                    to ensure complaints receive a fair hearing.




USDA/OIG/A 60801-1-Hq                                                                      25
Chapter 2: Organizational Structure

The Office of Civil Rights Needs an Environment of Stability
and Commitment to Civil Rights

                     CR's unsuccessful efforts to resolve the backlog of civil rights complaints
                     are in part the symptom of an insecurity that has affected office morale.
                     The many reorganizations the complaints resolution staff has undergone,
                     the high turnover the staff has experienced within the last several years,
                     and the inadequate training afforded both managers and staffmembers,
                     have left the staff unfocused and without clear direction. The staff we
                     found at the civil rights offices was not a coherent team of dedicated
                     professionals with a shared vision but a fragmented order of individual
                     fiefdoms, each mindful only of its own borders and its own
                     responsibilities.

                     We believe the Department needs to create an environment in which CR
                     can realize a sense of stability and permanence, and in which it can
                     recognize a commitment to civil rights by the Department as a whole.
                     Without a commitment from the separate agency heads, and a level of
                     accountability from them, CR may continue to perceive itself as an agency
                     without real authority.

                     We concluded that the Secretary needs to motivate the CR staff by
                     elevating its function to the subcabinet level. We are therefore
                     recommending that the Secretary create an Assistant Secretary of Civil
                     Rights to be responsible for all cross-cutting civil rights issues within the
                     Department.


Conclusion 7                         Civil rights enforcement and compliance in USDA have
CR Needs the Stability               been adversely affected by the many changes in the
of Subcabinet-Level Status           Department's civil rights structure. Civil Rights at USDA
                                     has undergone numerous realignments in the 1990's, leaving
                     Civil Rights staffmembers uncertain where they belong in the Department
                     hierarchy. High turnover among management and staffmembers has also
                     contributed to a feeling of impermanence. Employees cite these conditions
                     as two major causes of lack of commitment and low morale. The
                     instability has contributed to the dysfunctional civil rights program at the
                     Department and has hampered the ability of the Department to efficiently
                     resolve its program complaints.



USDA/OIG/A 60801-1-Hq                                                                          26
                   In 1994, the Office of Advocacy and Enterprise was reorganized and its
                   name changed to the Office of Civil Rights Enforcement. In 1995,
                   another reorganization established the Policy, Analysis and Coordination
                   Center - Civil Rights (PACC-CR). All policy and compliance activities for
                   civil rights, human resources management, property and procurement and
                   information resources management were realigned with the PACC-CR.
                   At the same time, the processing of civil rights program complaints was
                   transferred to the Office of Operations, a separate staff office aligned
                   under the Assistant Secretary for Administration.

                   The latest reorganization resulted from recommendations contained in the
                   CRAT report issued in February 1997. The report recommended that one
                   agency should be made responsible for ensuring compliance and
                   enforcement with civil rights laws and regulations. As a result, the
                   PACC-CR incorporated the functions performed by the Office of
                   Operations in May 1997. PACC-CR was then renamed the Office of Civil
                   Rights. This reorganization was in accordance with the Secretary's
                   Memorandum 1010-4, Restructuring of Departmental Administration,
                   dated May 16, 1997. OIG agreed that one agency should be responsible
                   for civil rights at the Department.

                   The two highest priorities assigned to CR at its inception were the
                   resolution of the backlog of cases in the Department and the issuance of
                   policies and procedures for civil rights operations. We found that high
                   turnover among management and intermittent pressures to solve other
                   operational problems distracted staffmembers from focusing on these
                   priorities.

                   -    CR has a history of turnover. The constant turnover in Civil Rights'
                        management was cited in the CRAT report as a factor contributing to
                        the disarray in civil rights at USDA. We found that this trend
                        continues. There have been eight Directors of USDA Civil Rights
                        Functions since 1990 and five Chiefs of the Program Complaints
                        Division since 1991. Also, since the issuance of our fourth report,
                        dated March 4, 1998, the Department has appointed a new Acting
                        Assistant Secretary for Administration and a new Civil Rights
                        Director. Recently the Deputy Director for Programs was reassigned
                        to a different position within the agency, and the Chief of Program
                        Investigations Division (PID) accepted a position at another agency.
                        In the last year alone, CR has reassigned its Deputy Director for
                        Employment to a different position within the agency, and the Chief
                        Investigator, PID, returned to the agency from which he was detailed.
                        The CR Director who was appointed in March 1997 retired on May


USDA/OIG/A 60801-1-Hq                                                                     27
                        2, 1998, and a special assistant to the Secretary was named the Acting
                        CR Director.

                        On July 13, 1998, the Department named the new Director for CR.
                        The new Director has recognized the recent failures of CR to
                        effectively process program complaints. The Director has shown a
                        commitment to staffing changes to bring in more qualified personnel.
                        She has also shown a commitment to developing policy and
                        procedures, establishing supervisory reviews and quality controls, and
                        reengineering the complaint process system to handle complaints more
                        effectively.

                   -    Problem-solving detracted from higher priorities. Efforts to staff the
                        PID, respond to court orders, organize files, and improve the data
                        base impeded staffmembers in their ability to resolve the backlog of
                        program complaints in a timely fashion.

                        In October 1997, CR was instructed by court order to collect and
                        copy county files in response to the Pigford lawsuit. In November,
                        CR began to receive and make copies of county files to meet the 2-
                        week period specified in the court order. Over 5 million pages were
                        copied and date stamped. In December, the judge issued a court order
                        to the Department to cease the administrative processing of
                        complaints for persons named in the lawsuit.

                        In November 1997, CR conducted an inventory of its program
                        complaints. The CR found that the files were in disarray. CR
                        established a file organization team to organize the complaint files.
                        The backlog of program complaints was defined as 1,088 program
                        complaints filed prior to November 1, 1997. That month, CR began
                        notifying complainants by letter that their complaints were being
                        processed. The mass mailing was made in response to a
                        recommendation by OIG.

                        Also in November 1997, at the direction of the Secretary, a team was
                        formed to improve data entries to the stopgap program complaint data
                        base. The team members, from different agencies within the
                        Department, added and verified over 40 data elements for the 1,088
                        complaints. The project was completed by the second week of
                        January 1998.




USDA/OIG/A 60801-1-Hq                                                                      28
                   The turnover of personnel and the distraction of changing assignments
                   reflect the need for greater stability within the Department's lines of
                   authority. The CRAT report debated whether the CR Director should
                   report directly to the Secretary or remain under the Assistant Secretary for
                   Administration. Some officials noted that elevation of the civil rights role
                   directly to the Secretary would increase both accountability and visibility,
                   while others felt a more effective program could be obtained by building
                   accountability into agency heads' performance standards and giving full
                   authority for civil rights oversight, compliance, and enforcement to the
                   Assistant Secretary for Administration.

                   In his May 16, 1997, memorandum, the Secretary gave the Assistant
                   Secretary for Administration the authority for oversight of all civil rights
                   functions within the Department. The memorandum stated that the
                   Assistant Secretary for Administration would serve as the Department's
                   Director of Equal Employment Opportunity and have authority to make
                   final determinations on discrimination in conducted or assisted programs,
                   and on discrimination in programs subject to the Equal Credit Opportunity
                   Act (ECOA). The Assistant Secretary for Administration was also given
                   the authority to delegate the performance of civil rights functions to the
                   heads of USDA agencies.

                   The Secretary also gave the Assistant Secretary for Administration
                   responsibility for four other departmental offices: the Office of Human
                   Resources Management, the Office of Procurement and Property
                   Management, the Office of Operations, and the Office of Small and
                   Disadvantaged Business Utilization.

                   Because the Assistant Secretary for Administration is responsible for five
                   staff offices (including CR) whose functions are departmentwide, we
                   concluded that serious consideration should be given to establishing an
                   Assistant Secretary position for Civil Rights. Other Departments we
                   contacted or visited, such as the Department of Education and the
                   Department of Housing and Urban Development, have subcabinet-level
                   positions for civil rights or equal opportunity.

                   Establishing an Assistant Secretary for Civil Rights should help to stabilize
                   the civil rights functions at the Department and will give civil rights the
                   attention needed to implement departmentwide changes. Also, an
                   Assistant Secretary for Civil Rights would have the same authority
                   delegated to the CR Director but would be on equal footing with other
                   Assistant and Under Secretaries in the Department. This would give civil



USDA/OIG/A 60801-1-Hq                                                                        29
                    rights the sinews it needs to enforce civil rights compliance in the
                    Department.

Recommendation 7
                    Establish an Assistant Secretary for Civil Rights at the subcabinet-level to
                    resolve cross-cutting issues between agencies and CR.


Conclusion 8                       High level officials and managers who play a key role in
CR Needs To Be Staffed             civil rights at the Department lack civil rights expertise or
By Qualified Managers and          experience. The Assistant Secretary for Administration is
Personnel                          responsible for civil rights, but this position is normally not
                                   filled by an individual with a civil rights background. As
                    mentioned previously, the Assistant Secretary for Administration has been
                    traditionally responsible for departmentwide functions distinct from civil
                    rights, such as procurement and property management. The lack of civil
                    rights expertise by the one official responsible for civil rights at the
                    Department impacts USDA's ability to enforce civil rights laws and
                    regulations and indicates a lack of commitment towards civil rights.

                    Also, the CR Director appointed in March 1997 in response to the CRAT
                    recommendation had years of experience in USDA's program delivery but
                    did not have a strong background in civil rights. This was also true of
                    CR's Deputy Director for Programs, who was also appointed in March
                    1997. This individual had an advanced degree in statistics, but did not
                    have a background in civil rights.

                    Although the CR was established in May 1997, its PID, which is
                    responsible for investigating and adjudicating complaints, did not have a
                    chief until October 1997. The Chief of PID had both USDA program and
                    civil rights experience, but his civil rights experience was limited to policy
                    and planning. Also, as stated previously, the Chief of PID left the agency
                    within 1 year. His experience was limited regarding the intake,
                    investigation, and adjudication of program complaints. We also found this
                    to be true of managers or team leaders placed in charge of the different
                    units within PID. The team leaders lacked the necessary experience and
                    knowledge of civil rights laws and the analytical framework to effectively
                    process program complaints.

                    The investigators hired by CR to investigate program complaints did not
                    come on board until November 1997. The majority of the investigators
                    hired by CR had advanced degrees or law degrees but lacked civil rights
                    investigative experience and had little knowledge of the Department's


USDA/OIG/A 60801-1-Hq                                                                          30
                   programs and county delivery systems. To further compound the
                   situation, CR provided minimal training to its staff of investigators (see
                   Conclusion 9). Investigators informed us that they were expected to
                   prepare an investigative plan, conduct the investigation, and write a report
                   of investigation in 3 weeks. Some said they were sent out to investigate
                   cases within days of reporting for duty at CR.

                   CR also hired up to 20 law students to work part time organizing files,
                   reviewing reports of investigation, and adjudicating cases. When we
                   questioned the expertise of law students to adjudicate program cases, we
                   were told by a CR official that the students were “third or fourth year law
                   students and were excellent writers.” In our opinion, an individual who
                   adjudicates civil rights program complaint cases should be versed in civil
                   rights laws and regulations and have knowledge of programs and county
                   delivery systems unique to the Department of Agriculture.

                   The PID compliance staff lacked a manager with knowledge of how to
                   plan for a compliance review, how to conduct a compliance review, and
                   how to report on the results of a compliance review. Also, since CR had
                   not conducted a compliance review for several years, the staff assigned to
                   the compliance unit had little or no experience in conducting a program
                   compliance review. No one assigned to the staff had previously
                   conducted a program compliance review.


                   Nevertheless, CR decided to conduct compliance reviews with an
                   inexperienced staff. Some compliance reviews were conducted in the
                   Virgin Islands, Oklahoma, Virginia, Mississippi, South Dakota, Montana,
                   and Colorado. Only the report on the compliance review for the Virgin
                   Islands has been released. This report remains unresolved because the
                   agencies involved have not accepted the conclusion reached by CR. The
                   new CR Director has sent the remaining reports back to the staff for
                   rewrites. The CR Director feels that the findings contained in the reports
                   lack support.

Recommendation 8
                   Require the CR Director to place high priority on hiring civil rights
                   managers who have a strong background in civil rights and a knowledge
                   of USDA programs and delivery systems.




USDA/OIG/A 60801-1-Hq                                                                       31
Conclusion 9                          Contractors and CR staff were not adequately trained to
Inadequate Training of Staff          perform the tasks assigned to them. Contractors received
and Contractors Delayed               little training because CR did not properly plan for a
Investigations                        training period for them, and CR staff received only minimal
                                      training because CR had not analyzed their training needs.
                      In addition, no formal training has been given to CR adjudicators, who in
                      many instances began adjudicating cases after performing only one or two
                      program investigations. We concluded that insufficient contractor and
                      staff training resulted in deficient investigations, some of which had to be
                      redone so that cases could be properly adjudicated. These deficiencies
                      delayed resolution of complaints.

                      We reported in Phase II of our progressive evaluations of CR the need for
                      training of CR staff. The Phase II report was issued in September 1997.
                      We are particularly concerned that now, after a year, CR has done little
                      to improve its staff’s capabilities through formal training.

                      Staff Training

                      CR does not establish training plans for members of its PID staff.
                      Individual training plans, although not required by the Department, act as
                      a tool for managers to assess the capabilities of their staff and to
                      determine where to invest training resources to get the most benefit for
                      the agency and employees. Without a formal training plan, an agency may
                      not direct its training efforts in areas where there is the most need. Many
                      CR staffmembers stated during our interviews with them that more
                      training was needed to improve the performance of investigations and
                      achieve consistency in the reports of investigations.

                      Based on information provided by CR, most of the PID staff received
                      some type of training during fiscal year 1998; however, specific types of
                      training appear to be lacking. For example, the investigators did not
                      receive specific training on how to write and organize investigative
                      reports. Also, adjudicators received no formal training on the
                      adjudications process. As a result, reports of investigation were not in
                      standard formats, and adjudicators may not have been using consistent
                      methods of analysis while adjudicating cases.

                      Contractor Training

                      Training provided to contractor investigators was minimal. However,
                      based on the resumes presented with the contract proposals, some of the
                      contractor investigators did not have any experience conducting program


USDA/OIG/A 60801-1-Hq                                                                          32
                    complaint investigations. CR should therefore have ensured that the
                    contractor investigators received thorough program and investigative
                    training before they were assigned any cases.

                    From interviews with various adjudicators, it was apparent that many of
                    the investigations performed by these contractors were deficient and
                    lacked consistency.

Recommendation 9a
                    Develop staff training plans that adequately reflect the training needs of
                    the agency.

Recommendation 9b
                    Provide training to staff personnel as soon as possible, when it is
                    determined that specific members of the staff have not received necessary
                    training to properly perform their assigned tasks.



Conclusion 10                       Most of the 43 PID staffmembers we interviewed told us
Morale Among Staffmembers           that morale in the office was poor. Although several causes
Is Low                              for the low morale were named, the common cause was
                                    high management turnover. Staffmembers felt the turnover
                    resulted in a lack of consistent direction and in a changing vision of CR's
                    purpose. Low morale can easily affect the productivity of a staff and may
                    be one reason for CR's poor performance over the last year.

                    We interviewed members of the PID staff, including those from grade GS-
                    5 through grade GS-15. Based on these interviews, we attempted to
                    document the staff's opinions toward office morale and office operations.

                    The majority of the staff stated that morale was low. They offered several
                    reasons for this condition:

                        *   management was never consistent because of a high turnover
                        *   direction from management was lacking
                        *   communications from management needed improvement
                        *   training was inadequate
                        *   timeframes were unreasonable
                        *   the temporary staff faced an uncertain future
                        *   supervision was inadequate at some levels
                        *   some employees appeared to be unproductive



USDA/OIG/A 60801-1-Hq                                                                       33
                    PID has had at least five directors over the last 8 years. This turnover has
                    left the leadership of the division fragmented and inconsistent, resulting in
                    a shifting vision that has frustrated employees and damaged the efficiency
                    of the unit. In addition, many staffmembers are temporary and therefore
                    face an unknown future concerning their employment. This uncertainty
                    can have an effect on the productivity of these employees.

                    Communication between management and staff also appears to be a
                    primary source of low morale. Many employees stated that when
                    decisions are made, the staff is never consulted for ideas. As a result,
                    many staffmembers believe that unreasonable and unattainable timeframes
                    for work issues are established. Also, many employees in PID do not
                    have formal performance standards and have not received their semiannual
                    performance appraisals. We were told that in the future these appraisals
                    will be based on a point system, and that this system may not have been
                    clearly articulated to the staffmembers.

Recommendation 10
                    Provide a mechanism for employee input into office operations through
                    quality control sessions and other forums.




USDA/OIG/A 60801-1-Hq                                                                         34
Chapter 3: Information Resources

CR Needs To Systematize its Data Entry Procedures and
Reorganize its Casefiles

                    CR's data base for tracking the status of program complaints is incomplete
                    and contains numerous errors and outdated information. CR's casefiles,
                    that support the data base, have been filed haphazardly in many cases,
                    making retrievability difficult if not impossible. Data has not been
                    reconciled with complaint files from other agencies, and filing in general
                    is unsystematic and needs reorganization. Forty casefiles could not be
                    found, and 130 complaints listed in USDA agency files are not in CR's
                    data base.

                    Overall, CR does not make the best use of the technology it has to track
                    and maintain information. Personnel are not trained to use the data base,
                    and controls over casefiles are too casual, allowing too many documents
                    to be passed between division personnel with no accountability.

                    We reported these deficiencies during our previous review. We noted
                    especially that casefiles needed to be standardized and controlled by a log
                    sheet showing who had possession of the file. We had also noted that
                    CR's data base needed to include the key dates associated with the
                    complaint process and case numbers that would allow CR to monitor each
                    case's progress. Because agencies do not always forward complaints,
                    reconciliation with their data bases was a critical recommendation in our
                    Phase I report. Although CR had indicated it would take corrective
                    actions to use its data base efficiently and reorganize its files, these actions
                    have not been successfully implemented.

Conclusion 11                     CR’s data base for tracking the status of program complaints
CR's Data Base Is                 is incomplete and contains numerous errors and outdated
Not Reliable                      information. This condition exists because CR has no data-
                                  input procedures, has not provided personnel with adequate
                    training, and has not established a system for second-party review. As a
                    result, CR produces unreliable management reports, provides inaccurate
                    and untimely information to the Secretary, and is unable to provide the
                    status of a complaint when requested by the complainant. The Secretary
                    has repeated these inaccuracies at congressional hearings and other public
                    forums.




USDA/OIG/A 60801-1-Hq                                                                            35
                   Problems in the data base indicate that CR personnel did not know how
                   to use the system efficiently. They did not make full use of the data fields
                   in the system, and they did not update information to effectively track
                   cases.

                   # CR personnel do not make full use of the data base. Even though
                     separate data fields exist to record when correspondence is mailed and
                     when CR receives a response, CR personnel ignore these fields and
                     enter this information in a general "status" field. Further, we found
                     instances when CR personnel did not use all the fields necessary to
                     track the progress of a case. For instance, a case that has gone
                     through the investigation process and has been closed may not have
                     all the intermediate dates, such as the date of the final report of
                     investigation, date of draft decision, etc., properly noted. These
                     conditions make it impossible for CR to query the data base on these
                     data fields. They also limit the reliability of the management reports
                     that may use these data fields.

                   # CR personnel are not required to update the data base in a timely
                     manner. On two occasions during our review, CR personnel updated
                     the data base after they obtained knowledge of our request for
                     information. We obtained a copy of CR’s data base on August 5,
                     1998, which showed at that time 78 closed cases in the ‘new’ category
                     of program complaints. On August 6, 1998, CR personnel were
                     requested to provide a list of all closed ‘new’ complaints. CR’s
                     report, which was generated on August 6, 1998, had 11 more closed
                     ‘new’ complaints than were noted in OIG’s copy of the data base.
                     However, none of the 11 cases were closed during August. CR had
                     not increased its productivity; it had only updated its data base.

                        On the second occasion, we used CR's data base to produce a list of
                        backlog cases sent to contractors for investigation. The list indicated
                        that CR had not yet received a report from the contractors. When we
                        asked CR personnel to show us the status of these cases, they
                        generated a list from their data base that showed 53 fewer cases under
                        investigation than shown on our list. Again, this was a result of
                        belated updating, not productivity. Our list also showed that 59 cases
                        were under investigation by CR investigators, but CR officials told us
                        that 35 of these had been returned for administrative action as far back
                        as February.




USDA/OIG/A 60801-1-Hq                                                                        36
                        File updating continued throughout our fieldwork. Table 9 shows the
                        change in the status of backlogged cases that was reflected in CR's
                        data base at the beginning of our fieldwork (August 5, 1998) and at
                        the end of our fieldwork (September 11, 1998). Most of the changes
                        were the result of updating.

                                            CHANGES IN BACKLOG
                                               (primarily due to data base updates)

                               Pre Investigation
                                   Investigation
                        ROI Review/Adjudication                                         As of August 5, 1998

                                       At OGC                                           As of September 11, 1998

                               Pending Closure
                                        Closed

                                                   0   100   200    300    400    500




                   Table 9: 37-Day Status Changes Resulting Primarily From File Updating.

                   # CR personnel do not always use correct closure codes. CR uses 18
                     codes to indicate why each case is closed. We found several cases
                     with blank closure code fields even though the cases were closed. In
                     15 percent (64) of the cases in CR’s August 5th data base, CR
                     personnel simply used the closed code "other." In eight of these cases,
                     another status field showed the nature of the closure. Although
                     specific codes were available for these cases, the codes were not used.

                   # CR personnel do not use all codes possible to identify closure. We
                     found instances where at least two closure codes would have been
                     appropriate in the case; however CR personnel only included one. For
                     instance, CR concluded that there were findings of discrimination that
                     resulted in a settlement agreement between the complainant and the
                     Department. CR personnel only coded the case as closed with
                     findings of discrimination but did not identify that the case included a
                     settlement agreement.

                   We believe that many of these errors were caused by CR’s lack of
                   procedures, guidance, and training on how to use the data base. Further,
                   CR does not have a policy for second-party review of the data once it is
                   in the system.

                   CR is in the process of creating a new data base which will give USDA
                   agencies access to CR’s data base to determine the status of program

USDA/OIG/A 60801-1-Hq                                                                                              37
                   complaints against their agencies. CR’s new data base, as described to us,
                   would allow more extensive edit checks to ensure the integrity of the data
                   being entered. However, we believe that before this new data base is
                   implemented, CR needs to ensure the integrity of the data in its current
                   data base so the new data base will not be corrupted by bad data. CR
                   must therefore establish procedures and provide training to personnel on
                   how to use the data base and input data. CR also needs to establish a
                   second-party review process that ensures the accuracy of input data and
                   requires a concurrent updating of each casefile.

                   Our review also disclosed that CR is not reconciling its data base with
                   those of other agencies. CR was established to be a central and
                   independent receptacle for all program civil rights complaints within the
                   Department. However, some agencies do not always forward their
                   complaints to CR, and CR does not followup with agencies to resolve
                   differences. According to CR officials, a monthly report of open
                   complaints is sent to each agency for purposes of reconciling.
                   Nevertheless, officials at FSA and Rural Development refuted this
                   statement. FSA officials said they have only received reports from CR
                   when specifically requested, and Rural Development officials said they
                   have only received one report in August 1998. Rural Development
                   officials told us this report was given to them during a face-to-face
                   meeting with CR officials.

                   We contacted the civil rights offices of 15 agencies within the Department
                   and asked them to verify that the complaints shown on CR's data base as
                   of August 5, 1998, were correct and complete. Five of the fifteen
                   agencies stated they did not have open civil rights complaints. Of the
                   remaining 10 agencies, we found discrepancies between CR's data base
                   and the data bases of 5 agencies. These 5 agencies (FSA, FNS, Rural
                   Development, the Natural Resources and Conservation Service, and the
                   Risk Management Agency) had 739 open complaints according to CR's
                   August 5, 1998, data base. We found a total of 130 cases from these 5
                   agencies which were not on CR's data base, including 70 at Rural
                   Development. Without timely knowledge of civil rights program
                   complaints collected by other agencies, CR can not begin the process of
                   resolving these cases.

                   We also rereviewed the status of the cases in our original sample of 241
                   FSA complaints. CR did not show 37 of these cases in its data base. (See
                   exhibit A.) Four of these cases were previously identified in the 130
                   unreconciled cases. We reviewed a listing provided by FSA and found 13



USDA/OIG/A 60801-1-Hq                                                                     38
                     of these 37 cases. Of the 13, FSA had a status of "closed" for 8 cases and
                     "sent to Dept." for 5 cases.

                     A lack of complaint reconciliations between CR and Department agencies
                     has been a recurring theme throughout our reviews. We first mentioned
                     this discrepancy in our Phase I report, and we noted the reconciliations
                     had not been implemented in our Phase IV report.

Recommendation 11a
                     Before the new data base is implemented, direct CR to ensure the integrity
                     of the data in its current data base by establishing procedures and
                     providing training to personnel on how to use the data base and input
                     data.

Recommendation 11b
                     Direct CR to establish a second-party review process to ensure the data
                     is reviewed at the time it is entered and that all relevant case data is
                     reviewed at the time the case is closed. Second-party review procedures
                     should require that all changes made in the data base be documented in the
                     casefile along with an explanation of why the change was made. Finally,
                     CR should establish procedures that require the data base to be timely
                     updated to ensure management reports provide an accurate picture of the
                     status of program complaints.

Recommendation 11c
                     Direct CR to institutionalize a process of reconciliation that holds each
                     agency head accountable for reconciling its data with that of CR.

Recommendation 11d
                     Direct CR to cleanse the current data base by reconciling all cases in CR's
                     data base with agency data and by determining the identity and status of
                     the 130 missing cases and the additional 33 cases from FSA original
                     backlog (37 cases less 4 cases identified as part of the 130).



Conclusion 12                       CR lacks control and accountability over the casefiles that
Condition of Casefiles Renders      are in its charge. Because of our concerns with the data
Critical Material Inaccessible      base, we conducted an inventory of CR's program
                                    complaint casefiles. CR was unable to locate 40 casefiles
                     that were listed on its data base, did not retain all confidential casefiles in
                     a secure location, and did not maintain all documentation in the correct



USDA/OIG/A 60801-1-Hq                                                                            39
                   casefile. We could not determine if enough information was available to
                   render a decision on the propriety of case closures.

                   We obtained a listing of all complaints on CR's data base, which included
                   cases categorized as backlog, new, and intend-to-file. We performed a
                   physical inventory of all cases at CR and attempted to reconcile these files
                   with CR's data base. As of August 5, 1998, CR claimed to have a backlog
                   total of 1,088, a new total of 203, and an intend-to-file total of 668. We
                   worked with CR for about 3 weeks to try to locate all of these casefiles.
                   However, we could only physically locate 1,054 backlogged cases, 201
                   new cases, and 664 intend-to-file cases. We could not locate 40 files.

                   When we first attempted to physically locate every casefile, we found that
                   not all files were in the secured file room. Most files that were
                   categorized as new and intend-to-file or that were part of the two lawsuits
                   were kept in the work area of two of the Program Investigations Division
                   (PID) employees. Whereas only authorized personnel have access to the
                   file room, all PID staff have access to these other areas. CR drafted file
                   room procedures, but these procedures were never implemented. We
                   found the following discrepancies:

                   -    The procedures state that the file manager will be responsible for
                        maintaining the complaint files, but new, intend-to-file, and lawsuit
                        files were not under the control of the file manager.

                   -    The procedures require that all files leaving the file room be checked
                        out. Files moving between staff in PID remain checked out to the
                        original requestor of those files. According to the file manager, when
                        a PID official receives a file he or she personally did not check out, the
                        official is required to e-mail the file manager and inform her the file
                        has changed possession. However, the file manager told us that PID
                        employees do not inform her of this change of possession. Usually the
                        individual who returns the file is not the individual who checked it out.

                   -    CR's procedures also state that when files are checked out, the file
                        manager will enter the name of the requestor immediately into the data
                        base case record. The file owner field will show the requestor's name
                        and date, and that person will be responsible for the files until they are
                        returned to the file room. We found this field did not contain updated
                        information which would lead us to the casefile. For example, we
                        found a few of the missing cases were still checked out to the former
                        Director of CR who officially retired over 3 months prior to our



USDA/OIG/A 60801-1-Hq                                                                          40
                        review. Many of the missing casefiles listed "missing" as the file
                        owner.

                   -    The CR's procedures state that files are to be separated by agency and
                        complainant, in alphabetical order. During our inventory, we found
                        cases for FNS, the Rural Housing Service, and the Cooperative State
                        Research, Education, and Extension Service filed with FSA cases. We
                        also found cases which were filed by first name and not last, and one
                        case where the complainant's folder was haphazardly placed in the file
                        without regard to either first or last name. Also, although procedures
                        state that closed files will be separated from active files, we found
                        many cases in the active file whose folders indicated the cases were
                        closed.

                   During our physical inventory, we intended to compare certain dates on
                   correspondence with dates in the data base. However, we found the
                   correspondence was misfiled. Occasionally documents from one
                   complainant's casefile would turn up in the file of a completely different
                   complainant. We also found that if a complainant had multiple folders,
                   CR had not numbered the folders so the reviewer would know whether he
                   or she had a complete file. In several instances, the multiple folders of a
                   case were filed separately: one folder was filed in one part of the file room
                   and another folder in a different part of the file room. In addition, we
                   observed general disarray in the file room. We saw files stacked against
                   the wall, strewn across the floor, and piled on top of filing cabinets. Many
                   of these files were duplicate copies of agency casefiles that CR did not
                   need (see photo).




USDA/OIG/A 60801-1-Hq                                                                        41
                     Figure 1: The State of CR's File Room




                     Figure 2: Numerous Copies of FSA Casefiles

Recommendation 12a
                     The complaints resolution task force should immediately establish control
                     of the files to ensure their integrity and to perform a document-by-
                     document sweep of the files.


Recommendation 12b
                     Direct CR to find the 40 missing files.



USDA/OIG/A 60801-1-Hq                                                                      42
Chapter 4: Policies and Procedures

CR Needs To Update Civil Rights Guidelines To Ensure Due
Care

                     CR has not provided adequate guidance to resolve program complaints.
                     There are no procedures for investigations, adjudications and compliance
                     reviews to ensure that these programs achieve their results, and that
                     reliable and timely information is obtained, maintained, reported and used
                     for decision-making. We attributed many of the inefficiencies in CR's
                     operations to a lack of guidance through formal written procedures.
                     Management has not implemented the kinds of controls needed to ensure
                     an effective and efficient operation. Without published regulations and
                     formalized procedures, CR has no complete assurances that the Program
                     Investigations Division is providing due care on each program complaint.

                     We reported this same condition during our first review of the complaints
                     resolution process in February 1997, and again in March of this year. We
                     believe that standardized, written guidelines are essential to CR's
                     operation. It is a matter of some concern to us that CR has, over the
                     space of 20 months, produced nothing to lay the foundation for good
                     management controls.

                     Office of Management and Budget (OMB) Circular No. A-123, states:
                     "Management controls are the organization, policies, and procedures used
                     to reasonably ensure that (i) programs achieve their intended results; (ii)
                     resources are used consistent with agency mission; (iii) programs and
                     resources are protected from waste, fraud, and mismanagement; (iv) laws
                     and regulations are followed; and (v) reliable and timely information is
                     obtained, maintained, reported and used for decision-making."

                     CR's delay in publishing regulations and procedures has also resulted in
                     the current lack of Department accountability to CR. CR has the
                     authority to enforce USDA agency compliance with Department civil right
                     policies, but has not revised the policy guidelines to implement this
                     authority.

                     OMB Circular No. A-123 states, "Management accountability is the
                     expectation that managers are responsible for the quality and timeliness of
                     program performance, increasing productivity, controlling costs and
                     mitigating adverse aspects of agency operations, and assuring that



USDA/OIG/A 60801-1-Hq                                                                        43
                    programs are managed with integrity and in compliance with applicable
                    laws."


Conclusion 13                     CR still does not have adequate controls over the receipt,
CR Needs To Revise Its            processing, and resolution of program complaints within its
Department Regulatory             civil rights complaint processing system. Because CR's
Guidelines                        Policy and Planning Division has made little effort to revise
                                  the entire 7 CFR part 15 on nondiscrimination or to redraft
                    Departmental Regulation 4330-1, there are no effective guidelines to
                    include the departmental agencies, programs (federally-assisted and
                    federally-conducted), and civil rights laws which USDA has the authority
                    to enforce.

                    In an effort to improve program operations, the program staff of CR held
                    a retreat in Beltsville, Maryland, in May 1998, and developed an
                    immediate workplan with 11 goals. Noteworthy goals included resolving
                    the 1,088 backlog program complaints by October 1, 1998, resolving all
                    new complaints within 180 days, developing effective management
                    information systems, developing policies that are founded in civil rights
                    laws and regulations, instituting reviews that effectively assesses agencies'
                    compliance with civil rights requirements, and providing job related
                    training as necessary.

                    We agree with the goals CR established at the retreat. However, CR did
                    not proceed to the next step by formulating policy and procedures to carry
                    out its stated goals. Our first report dated February 27, 1997, emphasized
                    the need for policy and procedures to govern the processing of civil rights
                    complaints. CR continues to lack the basic procedures, supervisory
                    reviews or quality controls to accomplish its goals and ensure integrity in
                    its operations.

                    Since May 16, 1997, when the Secretary established the Office of Civil
                    Rights and gave its Director full responsibility to resolve discrimination
                    complaints, CR’s Policy and Planning Division has written no
                    departmental guidelines to describe the complaint process governing the
                    receipt, processing, and the resolution of complaints within established
                    timeframes. Although the division was created solely to create such
                    guidelines, it has produced nothing on these key policy statements over
                    the 20 months of its existence.

                    Also, because of the lack of departmental guidelines, CR does not
                    properly oversee agencies' civil rights activities. We found the


USDA/OIG/A 60801-1-Hq                                                                         44
                     Accountability Division is responsible for monitoring corrective actions
                     prescribed by settlement agreements and decisions with findings of
                     discrimination; however, no one has actually been tracking the agencies'
                     progress in the program complaint process.

Recommendation 13
                     Direct CR either to issue within a 2-month timeframe the departmental
                     regulations governing the receipt, processing, and resolution of
                     discrimination complaints, or to consider alternative means of hastening
                     the issuance of these documents.


Conclusion 14                       CR has no standard procedures for the bulk of the
Standard Procedures Need To         operations of the PID, including investigations,
Be Published for Investigations     adjudications, and compliance reviews. PID itself has not
and Compliance Reviews              formalized its procedures for processing program
                                    complaints and conducting compliance reviews. The
                     division operates in a generally informal environment. As a result, there
                     is no reasonable assurance that program complaints are handled with due
                     care and that compliance reviews achieve their intended results.

                     The Program Investigations Division has divided itself into nine functional
                     areas. These areas included new complaints, investigations, adjudication,
                     file management, administrative closures, and compliance reviews. We
                     were able to identify new complaints and file management as the only two
                     functional areas with formal procedures. The new complaints’ procedures
                     were not sufficient because the process was too segmented to determine
                     the objective of each step. The file management’s procedures were
                     sufficient, but were not implemented by PID. For the remaining seven
                     areas, no formal procedures were in place to ensure that USDA program
                     complaints would generally receive the kind of processing needed to
                     ensure a timely hearing for the complainants.

                     Again, CR’s Policy and Planning Division is responsible to issue
                     procedures for the activities involved in the complaints resolution process.
                     The division has done some work on a procedures manual for compliance
                     reviews, but to date it has produced no procedural guidelines on the
                     critical processes of invesitgation and adjudication.

                     In the absence of formal procedures, several PID functions are relying on
                     borrowed guidelines or truncated direction. For example, investigators
                     are using draft procedures developed by the Department of Justice for
                     investigation of complaints of discrimination against recipients of Federal


USDA/OIG/A 60801-1-Hq                                                                         45
                    financial assistance. Also, adjudicators are using a form called "Criteria
                    for Assessing The Sufficiency of Investigative Report," but this form does
                    not provide formal procedures to explain the process entailed in arriving
                    at a finding of discrimination or at no finding of discrimination.

                    A manual on compliance reviews had been in circulation but was
                    discontinued after heavy criticism was aimed at both the manual and
                    Departmental Regulation 4330-1. The 1996 Report of the U.S.
                    Commission on Civil Rights found that the manual did not detail specific
                    timeframes for completing tasks, nor did it address the legal standards for
                    discrimination under Title VI. The manual suffered from the same lack of
                    clarity as Departmental Regulation 4330-1, particularly in its discussion
                    of different kinds of compliance reviews. OGC is currently drafting a
                    revised version of the compliance manual.

                    For fiscal year 1998, CR conducted 19 compliance reviews. However, in
                    the absence of adequate policy guidelines for the performance of these
                    reviews, the Department has no reasonable assurance that agencies are
                    complying with Title VI of the Civil Rights Act for both federally-assisted
                    and federally-conducted programs.

Recommendation 14
                    Direct CR to issue within a 2-month timeframe standard operating
                    procedures for program complaint processing.




USDA/OIG/A 60801-1-Hq                                                                       46
Chapter 5: Unresolved Recommendations

Past Deficiencies Continue: CR Has Not Implemented
Corrective Actions

                   In February of this year, we performed a review (Phase IV of our
                   continuing evaluation) of CR's efforts to implement recommendations we
                   had made to help improve its system for processing civil rights complaints.
                   These recommendations were contained in two evaluation reports and two
                   internal memoranda we issued the previous year. We found that of the 31
                   CR-related recommendations we had made in those documents, 8 had
                   been resolved and 23 had not. As of September 30 of this year, these 23
                   recommendations have not been implemented.

                   As this report has elsewhere indicated, the deficiencies for which last
                   year's recommendations were made continue to weaken CR's
                   performance. We reported last year that the program discrimination
                   complaint process lacked integrity, direction, and accountability. This
                   continues to be the case. Although CR has taken steps to clear its backlog
                   of complaints and impose some order on its processing operations, those
                   operations remain largely unsystematized and without the normal
                   structure of quality control.

                   The unresolved recommendations generally concern CR's need to create
                   plans to operate effectively and its need to impose timeframes on its
                   operations.

                        Regulations Are Not Yet Published. We recommended in February
                        1997 that CR update and publish Federal and departmental
                        regulations on processing program discrimination complaints for
                        federally-assisted and federally-conducted programs. CR responded
                        in March 1998 that departmental regulations (DR 4330-1) were being
                        finalized in conjunction with the Office of the General Counsel.
                        However, as we have noted in Chapter 6 of this report, the
                        Department's codified regulations, 7 CFR part 15-Discrimination, are
                        still outdated and do not reflect current departmental agencies,
                        programs, and laws. Also, as of the date of this evaluation, DR 4330-
                        1, which should describe how discrimination complaints should be
                        processed, has not yet been published.




USDA/OIG/A 60801-1-Hq                                                                      47
                        Publishing regulations governing the complaints process is vital to
                        maintaining accountability within the system. In the absence of any
                        formal regulations describing how the process should work,
                        operations at CR appear directionless and unfocused.

                        Reconciliation With Other Agency Casefiles is Still a Priority. In
                        February 1997, we recommended that CR determine the number of
                        outstanding complaints at FSA and other departmental agencies with
                        the assistance of those agencies. We concluded such a reconciliation
                        was necessary because our comparison of CR's list of open
                        complaints with lists from FSA and Rural Development showed
                        names on the agencies' lists that were not on CR's list and vice-versa.
                        Nevertheless, as of March 1998, CR had not completed such a
                        reconciliation and had no formal plan to perform one. As noted in
                        Chapter 4 of this report, reconciliation continues to be a problem at
                        CR.

                        The absence of a formalized reconciliation process makes an accurate
                        count of program complaints impossible. We noted in March of this
                        year that during congressional hearings and other public forums,
                        Department officials have repeatedly misstated the number of open
                        program complaints and the number of complaints closed by the
                        Department.

                        Deadlines Not Enforced for Agencies To Forward Complaints. In
                        February 1997, in order to ensure an independent review of
                        complaints of discrimination in the farm credit programs, we
                        recommended that (1) FSA State executive directors transfer to CR
                        the responsibility to conduct complaint reviews and (2) that CR re-
                        review all 734 complaints already reviewed by the State executive
                        directors. We noted in March 1998 that the State executive directors
                        had not submitted all their cases, whether reviewed or not, and we
                        further instructed CR to give the State executive directors a deadline
                        to forward all complaints. As of this evaluation, the State executive
                        directors have not forwarded all complaints and CR has not
                        established a timeframe to hold FSA accountable.

                        Plans Are Needed for Compliance Reviews. Our February 1997
                        evaluation report contained two recommendations specifically
                        requiring CR (1) to develop a comprehensive management evaluation
                        review system designed to evaluate civil rights compliance at all
                        levels, and (2) to evaluate each agency's civil rights unit to determine
                        if staffing and procedures were adequate.


USDA/OIG/A 60801-1-Hq                                                                        48
                        CR responded in March 1998 that it had created a division to develop
                        procedures for performing compliance reviews and to carry out those
                        reviews of Department agencies. The CR division had performed 19
                        reviews by August of 1998, but it has issued only 1 report.

                        Sensitive Issues Are Being Mishandled. Nine recommendations
                        relating to instances of unprofessional remarks or behavior were
                        contained in the December 1997 memorandum. The memorandum
                        was issued to inform the Assistant Secretary for Administration of
                        these specific situations in which employee conduct involving loan-
                        making, loan-servicing, and foreclosure proceedings may have
                        adversely affected minorities. We recommended that CR review each
                        of the nine instances. Although the cases were confidential, CR
                        referred them all to FSA for review. Meanwhile CR responded to
                        OIG’s recommendations without revealing what it had done. CR
                        simply informed OIG that it intended to perform a comprehensive
                        review at each of the locations. Upon discovering that CR had
                        referred the cases to the agency, we demanded that CR call them
                        back. FSA returned the cases without formally investigating them.
                        As of this evaluation, CR has also done nothing to investigate them.

                        CR Needs To Make a Determined Effort To Find Lost Casefiles. In
                        February 1997, we reported that CR needed to reevaluate 26
                        discrimination complaints that had been closed by FSA program
                        managers without CR's concurrence. In March 1998, CR responded
                        that it had reevaluated 21 of the complaints but had no record of the
                        remaining 5 cases. As of this evaluation, CR has still not found the
                        5 cases.

                        Plan To Handle Backlog May Not Be Necessary. Our February 1997
                        evaluation report and our September 1997 evaluation report
                        contained four recommendations concerning CR's backlog of civil
                        rights complaints. By March 1998, CR had identified the full extent
                        of its backlog and placed its reliance on contractors and inhouse
                        investigators to investigate the complaints. We asked CR for a plan
                        to reduce the backlog within a reasonable timeframe, but CR did not
                        provide us with such a plan. However, if our recommendation to
                        convene a task force to clear the backlog is accepted, such a plan
                        from CR would no longer be necessary.

                        Distribution of Aging Reports Is Vital. In February 1997, we
                        recommended that CR send aging reports of complaints each week to
                        responsible officials. During our February review, we noted that CR


USDA/OIG/A 60801-1-Hq                                                                     49
                        did not prepare aging reports to identify trends or situations in need
                        of attention. This was still true in March of 1998. If a task force is
                        assembled to undertake to clear CR's backlog of complaints, CR may
                        not need to age them for management purposes; however, CR still
                        needs to track the age of its current complaints to ensure that none of
                        these are left unattended.

                        Training of Investigators Should Be Higher Priority. Our September
                        1997 evaluation report recommended that CR retain the authority to
                        conduct investigations of program discrimination complaints and that
                        it ensure that its staff is adequately trained to perform these
                        investigations. In March 1998, CR responded that it had divided the
                        investigative efforts between the agencies, which would perform fact-
                        finding activities, and its own staff and that it provided its staff with
                        10 hours of orientation, none relating specifically to investigative
                        procedures. We concluded that CR's training in the complex area of
                        conducting civil rights investigations was inadequate. We required
                        CR to provide us with a training plan for investigators, but as of the
                        time of this evaluation it has not produced one.

                    We have attached as exhibits B and C to this report the letters sent by the
                    Secretary directing CR to implement the recommendations summarized
                    in this chapter. The letter in exhibit B refers to the recommendations
                    made in our Phase I report and was sent on February 26, 1998. The letter
                    in exhibit C refers to the recommendations made in our Phase II report
                    and was sent on October 1, 1997.

                    Because this report makes many recommendations similar to those already
                    discussed in this chapter, we are not restating any of the unresolved
                    recommendations. We will administratively resolve the recommendations
                    concerning a plan to clear the backlog, if our recommendation to transfer
                    the backlog to a task force is implemented.

                    We will continue to work with CR to resolve these outstanding issues and
                    to ensure that corrective actions are implemented in a timely manner.

Recommendation 15
                    Direct CR to resolve within 2 months all recommendations that we made
                    in our Phase I and Phase II reports and that CR has failed to implement.




USDA/OIG/A 60801-1-Hq                                                                         50
EXHIBIT A - 37 FSA Cases Not on CR’s Data Base 1/




USDA/OIG/A 60801-1-Hq                               51
EXHIBIT B - SECRETARY’S RESPONSE TO OIG’S PHASE I
            REPORT




USDA/OIG/A 60801-1-Hq                          52
EXHIBIT C - SECRETARY’S RESPONSE TO OIG’S PHASE II
            REPORT




USDA/OIG/A 60801-1-Hq                           53
ABBREVIATIONS



CR                                                       The Office of Civil Rights
CRAT                                                     Civil Rights Action Team
CRIT                                            Civil Rights Implementation Team
                                (convened to implement CRAT's recommendations)

ECOA                                                Equal Credit Opportunity Act
FNS                                                   Food and Nutrition Service
FSA                                                         Farm Service Agency
HUD                           U.S. Department of Housing and Urban Development

MOU                                                Memorandum of Understanding
OGC                                                   Office of the General Counsel
OIG                                                 Office of the Inspector General
OMB                                              Office of Management and Budget

PACC - CR               The Policy, Analysis, and Coordination Center - Civil Rights
                                                             (a predecessor of CR)

PID                                                 Program Investigations Division
                                                                 (a division of CR)

ROI                                                         Report of Investigation

USDA                                                U.S. Department of Agriculture




USDA/OIG/A 60801-1-Hq                                                            54
